APPENDIX

i
APPENDIX
Table of Contents
Appendix A:

California Supreme Court Order
(October 21, 2020) ......................... 1a

Appendix B:

State Bar Court Review
Department Order Modifying
Opinion (June 3, 2020) .................. 3a

Appendix C:

State Bar Court Review
Department Modified Opinion
(June 3, 2020) ................................ 5a

Appendix D:

State Bar Court Hearing
Department Recommendation
(June 27, 2019) ........................... 48a

Appendix E:

Petition for Review (August 17,
2020)............................................. 89a

Appendix F:

Office of Chief Trial Counsel
Notices of Charges (various) ..... 135a

1a
__________
APPENDIX A
__________

CALIFORNIA SUPREME COURT
No. S263210

IN THE MATTER OF
SCOTTLYNN J. HUBBARD IV,
ON DISCIPLINE MEMBER NO. 212970

Filed October 21, 2020
ORDER REGARDING
PETITION FOR REVIEW
The petition for review is denied. The court orders
that Scottlynn J. Hubbard IV (Respondent), State Bar
Number 212970, is suspended from the practice of law
in California for two years, execution of that period of
suspension is stayed, and Respondent is placed on
probation for two years subject to the following
conditions: 1. Respondent is suspended from the
practice of law for a minimum of the first year of
probation, and Respondent will remain suspended
until he provides proof to the State Bar Court of

2a
rehabilitation, fitness to practice and present learning
and ability in the general law before the suspension
will be terminated. (Rules Proc. of State Bar, tit. IV,
Stds. for Atty. Sanctions for Prof. Misconduct, std.
1.2(c)(1).) 2. Respondent must also comply with the
other conditions of probation recommended by the
Review Department of the State Bar Court in its
Opinion filed on May 13, 2020 and modified on June
3, 2020. 3. At the expiration of the period of probation,
if Respondent has complied with all conditions of
probation, the period of stayed suspension will be
satisfied and that suspension will be terminated.
Respondent must provide to the State Bar's Office of
Probation proof of taking and passing the Multistate
Professional
Responsibility
Examination
as
recommended by the Review Department in its
Opinion filed on May 13, 2020 and modified on June
3, 2020. Failure to do so may result in suspension.
(Cal. Rules of Court, rule 9.10(b).) Respondent must
also comply with California Rules of Court, rule 9.20,
and perform the acts specified in subdivisions (a) and
(c) of that rule within 30 and 40 calendar days,
respectively, after the effective date of this order.
Failure to do so may result in disbarment or
suspension. Respondent must also maintain the
records of compliance as required by the conditions of
probation. Costs are awarded to the State Bar in
accordance with Business and Professions Code
section 6086.10 and are enforceable both as provided
in Business and Professions Code section 6140.7 and
as a money judgment.

3a
__________
APPENDIX B
__________

STATE BAR COURT OF CALIFORNIA
REVIEW DEPARTMENT
EN BANC
Nos. 16-O-10871 (16-O-14863)

IN THE MATTER OF
SCOTTLYNN J. HUBBARD IV
STATE BAR NO. 212970

Filed June 3, 2020
ORDER MODIFYING OPINION
[NO CHANGE IN JUDGMENT]
It is ordered that the opinion filed herein on May
13, 2020, which was not certified for publication, be
modified as follows:
On page 28, the opinion erroneously included an
inapplicable probation condition. The opinion is
corrected to remove probation condition number 9 on
page 28.

4a
This modification does not alter any of the factual
findings or legal conclusions set forth in the opinion,
and it does not extend any deadlines. (Cal. Rules of
Court, rule 8.264(c) [modification of reviewing court
that does not change appellate judgment does not
extend finality date of decision].)
Catherine D. Purcell
Presiding Judge

5a
__________
APPENDIX C
__________

STATE BAR COURT OF CALIFORNIA
REVIEW DEPARTMENT
EN BANC
Nos. 16-O-10871 (16-O-14863)

IN THE MATTER OF
SCOTTLYNN J. HUBBARD IV
STATE BAR NO. 212970

Filed May 13, 2020
OPINION
[As Modified on June 3, 2020]
In his first disciplinary case, Scottlynn J. Hubbard
IV is charged with ten counts of misconduct stemming
from statements he made in two separate appeal
proceedings concerning actions his father, Lynn
Hubbard III, 1 undertook as an attorney representing
1

Further references to Lynn Hubbard are to his first name

6a
clients in those two matters. A hearing judge found
Hubbard culpable on three counts of moral turpitude,
in which he made misleading statements to the United
States Supreme Court (U.S. Supreme Court) and the
Ninth Circuit Court of Appeals (Ninth Circuit). The
judge dismissed six of the charges as duplicative of the
three moral turpitude charges found, and she
dismissed a charge because the Office of Chief Trial
Counsel of the State Bar (OCTC) failed to sustain its
burden in proving culpability. The judge’s
recommended
discipline
included
an
actual
suspension of one year, continuing until Hubbard
provides proof of his rehabilitation, fitness, and
present learning and ability to practice law.
Both Hubbard and OCTC appeal. Hubbard argues
that he should be exonerated of all charges or, if
culpability is found, he should receive more credit in
mitigation, the aggravation findings should be
dismissed, and the discipline recommendation should
be less. OCTC accepts the hearing judge’s
recommended
discipline;
however,
it
seeks
reinstatement of the seven dismissed charges.
Upon our independent review of the record (Cal.
Rules of Court, rule 9.12), we affirm the hearing
judge’s culpability findings, along with most of the
aggravation and mitigation findings. We also find
Hubbard culpable of the seven charges that were
dismissed. After reviewing the record, the relevant
standards, and comparable law, we agree with the
only to differentiate him from his son; no disrespect is
intended.

7a
judge’s disciplinary recommendation.
I. PROCEDURAL HISTORY
OCTC filed a Notice of Disciplinary Charges (NDC)
on August 7, 2018, alleging ten counts of misconduct:
three counts (one, four, and seven) of violating section
6106 of the Business and Professions Code 2 (moral
turpitude—misrepresentation); three counts (two,
five, and eight) of violating section 6068, subdivision
(d) (seeking to mislead a judge); and four counts
(three, six, nine, and ten) of violating section 6068,
subdivision (b) (failure to maintain respect due to
courts and judicial officers). On March 19, 2019, the
parties filed a Stipulation as to Facts and Admission
of Documents (Stipulation), and a three-day trial took
place on March 19, 20, and 21. Posttrial briefing
followed and the hearing judge issued her decision on
June 27, 2019.
II. BACKGROUND FACTS 3
Hubbard was admitted to practice law in
California on May 31, 2001. Until his father’s
disciplinary suspension in 2016, Hubbard worked in
his father’s law office, which represented plaintiffs
who alleged violations of the Americans with
2

Further references to sections are to this source unless
otherwise noted.

3

The facts included in this opinion are based on the
Stipulation, trial testimony, documentary evidence, and the
hearing judge’s factual findings, which are entitled to great
weight. (Rules Proc. of State Bar, rule 5.155(A).)

8a
Disabilities Act (ADA). The allegations of Hubbard’s
misconduct in this case arise from his defense of
Lynn’s actions in appeal proceedings in two separate
cases.
A. Plaza Bonita Matter
In 2009, Lynn filed an ADA action, Hubbard v.
Plaza Bonita, LP et al. (Plaza Bonita matter), on
behalf of his mother, Barbara Hubbard, 4 against
several defendants in the United States District Court
for the Southern District of California (Case No. 09CV-1581). During the litigation, Barbara passed away
on November 13, 2009. Lynn did not disclose that
Barbara had died and, approximately one month later,
he sent two of the defendants a settlement agreement
containing a signature written as “Barbara Hubbard,”
which was not, in fact, Barbara’s.
On June 13, 2011, a magistrate judge issued an
order finding that Lynn, or someone at his direction,
signed Barbara’s name on the settlement agreement.
The judge also found Lynn intentionally deceived and
concealed facts from the parties and the court
regarding Barbara’s death and the origin of her
signature. Pursuant to that order, the magistrate
judge also ordered that Lynn pay opposing counsel
$55,224.05 in sanctions. Hubbard, now representing
his father, objected to the sanctions order on June 23,
2011. On July 25, 2013, the district court sustained in

4

Further references to Barbara Hubbard are to her first name
only to differentiate her from her son and grandson; no
disrespect is intended.

9a
part and overruled in part Hubbard’s objections to the
order, ultimately reducing the sanctions to
$49,056.05.
Hubbard appealed the order of monetary sanctions
against Lynn to the Ninth Circuit, which affirmed the
district court’s order on November 12, 2015, and also
described Lynn’s actions as an intentional deception.
Hubbard then petitioned the Ninth Circuit for a
rehearing en banc, which was denied. On June 14,
2016, Hubbard filed a petition for writ of certiorari
(writ petition) to the U.S. Supreme Court, which also
denied Hubbard’s appeal.
B. Vogel Matter
On January 23, 2013, Lynn filed an ADA complaint
in Vogel v. Tulaphorn, Inc. et al. (Vogel matter) in the
United States District Court for the Central District of
California (Case No. 13-CV-00464) on behalf of his
client, who alleged that he encountered barriers to
access at a McDonald’s restaurant. Subsequently,
Lynn filed a motion for summary judgment (MSJ).
Attached to the MSJ was a receipt, photographs
documenting the visit, and a declaration from Lynn’s
client affirming that he had personally received the
receipt when he made a purchase from the restaurant
on January 8, 2013.
Shortly after the MSJ was filed, Tulaphorn’s
attorneys disclosed to Lynn that videotape evidence
showed it was not the plaintiff who visited the
restaurant on the relevant date, but, instead, Lynn
and a female companion. The videotape further
showed the female companion, and not the plaintiff,
purchasing a drink and receiving the receipt. As a

10a
result, Tulaphorn’s attorneys filed a motion for
terminating sanctions and a request for attorney fees.
On November 4, 2013, District Court Judge Phillip
Gutierrez held a hearing on the motion and the
request, and the next day he granted both. The judge
determined Vogel and Lynn engaged in a pattern of
falsifying evidence, which amounted to bad faith,
given that Vogel never produced any evidence of a
different visit to the restaurant nor a sworn statement
explaining why he described detailed facts about a
visit he later acknowledged did not occur.
Hubbard, acting as counsel for Vogel, appealed the
order to the Ninth Circuit. On February 4, 2016, a
Ninth Circuit panel conducted oral arguments on the
matter. On February 17, the Ninth Circuit panel
dismissed Hubbard’s appeal. On March 2, Hubbard
filed a petition for a rehearing en banc with the Ninth
Circuit, which was denied on April 1.
III. HUBBARD IS CULPABLE ON ALL COUNTS
CHARGED, INCLUDING THOSE COUNTS
DISMISSED AS DUPLICATIVE BY THE
HEARING JUDGE
A. Count
One:
Moral
Turpitude—
Misrepresentation (Bus. & Prof. Code § 6106) 5
Count Two: Seeking to Mislead Judge (§ 6068,
5

Section 6106 provides, “The commission of any act involving
moral turpitude, dishonesty, or corruption, whether the act
is committed in the course of his relations as an attorney or
otherwise, and whether the act is a felony or misdemeanor or
not, constitutes a cause for disbarment and suspension.”

11a
subd. (d)) 6
Count Three: Failure to Maintain Respect
Due to Courts and Judicial Officers (§ 6068,
subd. (b)) 7
In count one, OCTC charged Hubbard with
violating
section
6106
by
making
two
misrepresentations in his writ petition to the U.S.
Supreme Court in the Plaza Bonita matter by stating
that, “[t]hroughout [Lynn’s] forty-year career [he] has
never . . . never . . . been found to have committed
professional misconduct . . . “ and also that,
Everything that [Lynn] said in this matter was
100% true, 100% of the time; and there is
absolutely no evidence that he fraudulently
concealed anything from anyone. [Citation
omitted.] More importantly . . . [Lynn] did not come
close to (much less cross) the line of professional
misconduct, unethical behavior, bad faith, or even
recklessness. [Citation omitted.] In fact, after eight
years of persecution no one—not [opposing
counsel], not the magistrate, not two district
[court] judges, not the State Bar of California, not
even the Ninth Circuit panel—has identified what
6

Section 6068, subdivision (d), provides that an attorney has a
duty “[t]o employ . . . those means only as are consistent with
truth, and never to seek to mislead the judge or any judicial
officer by an artifice or false statement of fact or law.”

7

Section 6068, subdivision (b), provides that an attorney has a
duty “[t]o maintain the respect due to the courts of justice and
judicial officers.”

12a
duty [Lynn] supposedly violated.
The hearing judge found Hubbard culpable as charged
and determined both statements to be willful
misrepresentations in violation of section 6106.
Hubbard argues that his statements were only
introductory arguments and thus not material to the
issues before the tribunal, and are, in fact, true when
understood in context. We find no merit to these
arguments. From OCTC’s allegations, we find that
Hubbard made misrepresentations when he stated
that Lynn never committed professional misconduct
throughout his 40-year career, and that no one,
including Lynn’s opposing counsel, OCTC, or any
judge in the case had identified any ethical duty Lynn
violated.
Regardless of where Hubbard’s statements were
made in the writ petition, they are material. He made
them for the relevant purpose of securing an
advantageous outcome, namely to obtain a reversal by
the U.S. Supreme Court of the order issued against
Lynn by the district court. (In the Matter of Chesnut
(Review Dept. 2000) 4 Cal. State Bar Ct. Rptr. 166,
174–175 [false statement made to tribunal is material
when used to secure advantage in forum].)
We also disagree with Hubbard’s argument that
his statements are true in context. Simply put, the
statements found to be material are also untrue
factual assertions. It is clear from Hubbard’s first
statement that he meant to convey Lynn had never
been disciplined from his 1976 admission to practice
law until the 2016 filing of the writ petition. This
statement leaves out the relevant facts that Lynn had

13a
been disciplined by the district court and the Ninth
Circuit in 2013, 8 and also was found culpable of
professional misconduct by a State Bar Court hearing
judge in 2015. 9 His other statement—that no one
involved in the Plaza Bonita matter had identified any
duty Lynn had violated—is also an intentional
misrepresentation of fact. Both the district court and
the Ninth Circuit expressly determined that Lynn
intentionally deceived his opposing parties when he
failed to inform them that the signature on the
settlement agreement was not Barbara’s. The hearing
judge also found intentional deception based on the
8

In the Vogel matter, the magistrate judge referred the matter
to the Southern District Standing Committee for Discipline.
In December 2012, a disciplinary bench trial was held in
district court and Hubbard represented his father. On
February 4, 2013, the district court suspended Lynn from the
practice of law for one year. Hubbard appealed his father’s
suspension to the Ninth Circuit, which dismissed the appeal
and reciprocally suspended Lynn for one year on December
10, 2013.

9

In 2014, OCTC filed an NDC against Lynn alleging
misconduct in the Plaza Bonita matter and a second NDC
against him and his associate, Kushprett Mehton, alleging
misconduct in the Vogel matter. At trial, during the
conclusion of OCTC’s case-in-chief, it dismissed its case
against Mehton. OCTC did not dismiss any charges against
Lynn and he was found culpable of professional misconduct
in both the Plaza Bonita and Vogel matters. The hearing
judge recommended a one-year actual suspension. Lynn
appealed and, on August 4, 2016, we recommended a oneyear actual suspension to continue until he proves his
rehabilitation, fitness, and present learning and ability to
practice law, which the Supreme Court ordered on November
29, 2016.

14a
district court’s reasons for issuing the terminating
sanctions against Lynn in 2013.
Case law is well established that moral turpitude
includes an attorney’s false or misleading statements
to a court or tribunal. (In the Matter of Maloney and
Virsik (Review Dept. 2005) 4 Cal. State Bar Ct. Rptr.
774, 786.) We agree with the hearing judge that clear
and convincing evidence exists 10 in the record to find
that Hubbard made two misrepresentations in his
writ petition to the U.S. Supreme Court in willful
violation of section 6106.
The hearing judge dismissed count two (§ 6068,
subd. (d), seeking to mislead a judge) and count three
(§ 6068, subd. (b), failing to maintain respect due to
courts and judicial officers) as duplicative of count one.
We disagree and reverse. We agree with OCTC’s
argument that an attorney should be found culpable
for all misconduct committed, in order to maintain
both the highest professional standards and the
public’s confidence in the legal profession. (See In the
Matter of Moriarty (Review Dept. 2017) 5 Cal. State
Bar Ct. Rptr. 511, 520 [no dismissal of charge where
same misconduct proves culpability for another
charge].) 11

10

Clear and convincing evidence leaves no substantial doubt
and is sufficiently strong to command the unhesitating
assent of every reasonable mind. (Conservatorship of
Wendland (2001) 26 Cal.4th 519, 552.)

11

We note that Hubbard cited the California Supreme Court’s
decision in Bates v. State Bar (1990) 51 Cal.3d 1056 to

15a
The evidence, as discussed above, clearly shows
that Hubbard’s statements were material and
intentionally false misrepresentations of fact. We find
him culpable of seeking to mislead the U.S. Supreme
Court, as alleged in count two, and of failing to
maintain respect due it, as alleged in count three, for
the same statements that established culpability in
count one. (In the Matter of Moriarty, supra, 5 Cal.
State Bar Ct. Rptr. at p. 520 [same intentional
misrepresentation that violates § 6106 also violates §
6068, subd. (d); see In the Matter of Harney (Review
Dept. 1995) 3 Cal. State Bar Ct. Rptr. 266, 282
[attorney has responsibility under § 6068, subd. (b), to
not withhold material information from court].)
Because these findings of culpability for counts two
and three are based on the same facts that establish
culpability under count one, we assign no additional
disciplinary weight. (In the Matter of Moriarty, supra,
5 Cal. State Bar Ct. Rptr. at p. 520 [no disciplinary
weight assigned for additional culpability findings
based on same facts].)

support his argument that dismissal of duplicative charges is
the “rule of law.” Our reading of Bates does not lead us to
conclude it would be improper to find additional counts of
culpability, with no additional disciplinary weight, where the
same facts prove that more than one act of professional
misconduct occurred. The court in Bates concluded it did not
need to “definitely answer” the question of dismissing
duplicative allegations of misconduct because the State Bar
considered the question moot as a practical matter in
determining the discipline for that case. (Id. at p. 1060.)

16a
B. Count
Four:
Moral
Misrepresentation (§ 6106)

Turpitude—

Count Five: Seeking to Mislead Judge (§ 6068,
subd. (d))
Count Six: Failure to Maintain Respect Due
to Courts and Judicial Officers (§ 6068, subd.
(b))
In count four, OCTC alleged Hubbard violated
section 6106 when he concealed from the Ninth Circuit
panel during oral argument for the Vogel matter that
the hearing judge in Lynn’s disciplinary case found
Lynn culpable of acts involving moral turpitude, and
that his appeal of that finding was pending before the
Review Department. Further, OCTC alleged Hubbard
created the false impression that only Lynn’s associate
Mehton had been charged for misconduct in the Vogel
matter even though Lynn had also been charged.
At the February 4, 2016 oral argument, the
following exchange took place between Hubbard and
Judge Milan Smith:
Judge Smith:

Has the State Bar taken any
action in connection with the
attorneys in this matter?

Hubbard:

With respect to the attorney
responsible for the deposition . . .
uh . . . the discovery-related
abuses, as I indicated in our reply
brief . . .

17a
Judge Smith:

What happened? 12

Hubbard:

While it happened, all of this . . .

Judge Smith:

No, I mean, what did the State Bar
do?

Hubbard:

Oh, the State Bar dismissed in the
interests of justice, their words.
Dismissed all the charges against
him.

Judge Smith:

Any of the other attorneys?

Hubbard:

That was the only attorney.

Judge Smith:

The only one?

Hubbard:

Yes.

The hearing judge found that Hubbard’s exchange
with the Ninth Circuit judge was intentionally
misleading and constituted an act of moral turpitude
in willful violation of section 6106.
Hubbard argues he was “completely truthful” in
his responses to Judge Smith’s questions about the
State Bar proceedings. Hubbard’s contentions are not
credible when reviewing the questions Judge Smith

12

Hubbard and OCTC stipulated to the above testimony, but
disagreed as to whether Judge Smith’s question was “What
happened?” or “While it happened?” The hearing judge found
the distinction irrelevant in the context of the exchange, and
we agree.

18a
asked. The judge’s initial question, whether the State
Bar took action against the attorneys in the Vogel
matter, was clearly not limited to those who had been
dismissed from the State Bar disciplinary
proceedings. Further, as the hearing judge properly
concluded, after Hubbard declared, “the State Bar
dismissed [the charges] in the interest of justice,”
Judge Smith then followed up by asking about
anybody else Hubbard may have failed to mention:
“any of the other attorneys?” to which Hubbard
responded, “That was the only attorney,” meaning
Lynn’s associate Mehton. By responding as he did,
Hubbard presented a false narrative to the judges
because he failed to disclose that Lynn had been found
culpable of moral turpitude by the hearing judge in
February 2015 based on his conduct in the Vogel
matter and that an appeal of that finding was
pending. These statements are misleading because he
gave the clear impression that the State Bar took
action only against Mehton, whom it later let go.
Hubbard also asserts that he was not required to
further explain because “Judge Smith then stopped
asking questions about the State Bar proceeding, and
Hubbard moved on.” This argument is also not
credible. Hubbard had a duty to render complete and
candid disclosures to the court once it asked a
question; it is not the judge’s duty to ensure such
disclosures, as he implies. Hubbard’s intentional
failure to disclose material and relevant information
to the Ninth Circuit panel is a dishonest act in
violation of section 6106, and we thus find him
culpable as charged in count four. (In the Matter of
Field (Review Dept. 2010) 5 Cal. State Bar Ct. Rptr.
171, 177.)

19a
We also find Hubbard culpable of violating section
6068, subdivision (d) (count five), and section 6068,
subdivision (b) (count six), based on the same facts
that established moral turpitude in count four. 13 (See
In the Matter of Chesnut, supra, 4 Cal. State Bar Ct.
Rptr. at p. 174 [concealment of material fact misleads
judge just as effectively as false statement and
violates § 6068, subd. (d); In the Matter of Field, supra,
5 Cal. State Bar Ct. Rptr. at p. 176 [attorney’s failure
to disclose material information to court related to
subject of court hearing is violation of § 6068, subd.
(b)].)
C. Count
Seven:
Moral
Misrepresentation (§ 6106)

Turpitude—

Count Eight: Seeking to Mislead Judge (§
6068, subd. (d))
Count Nine: Failure to Maintain Respect Due
to Courts and Judicial Officers (§ 6068, subd.
(b))
In count seven, the NDC alleged that Hubbard
engaged in five acts, each constituting moral turpitude
in violation of section 6106 by making false and
misleading statements to the Ninth Circuit in his
petition for a rehearing en banc in the Vogel matter.
13

We reverse the hearing judge’s dismissal of counts five and
six as duplicative of count four for the same reasons we
reversed her dismissals regarding counts two and three as
duplicative of count one. We assign no additional disciplinary
weight to these culpability findings. (In the Matter of
Moriarty, supra, 5 Cal. State Bar Ct. Rptr. at p. 520.)

20a
OCTC also alleged that the same five acts violate
section 6068, subdivision (d) (count eight), and section
6068, subdivision (b) (count nine). 14 We discuss each
of the five alleged acts separately to determine
culpability under the three counts charged. 15
1. Hubbard Concealed that Lynn Had Been
Found Culpable of Misconduct by the State
Bar Court
In count seven, OCTC alleges Hubbard concealed
from the Ninth Circuit in the petition for rehearing en
banc that the hearing judge had found Lynn culpable
of professional misconduct and that an appeal of that
finding was pending in the Review Department. In the
petition, Hubbard first stated, “The State Bar of
California . . . prosecuted [Lynn] and Mehton for
professional misconduct and ethics violations.”
However, in the following sentence he claimed, “The
results of that prosecution was [sic] . . . the prosecutor
dismissed all of the charges based on . . . accusations
of discovery abuse and manufacturing evidence.” The
judge found Hubbard’s statements deliberate and
misleading because he “oscillated” between the

14

As before, we reverse the hearing judge’s dismissal of counts
eight and nine as duplicative of count seven for the same
reasons we reversed her dismissals regarding counts two and
three as duplicative of count one.

15

Where we find an act establishes culpability for one count, no
additional disciplinary weight is added to any subsequent
count where culpability is also established for the same act.
(In the Matter of Moriarty, supra, 5 Cal. State Bar Ct. Rptr.
at p. 520.)

21a
charges against Lynn and Mehton, and Mehton’s
dismissal. The judge also found Hubbard was
deceptive by stating in the petition that “[Lynn’s]
success was so overwhelming that the State Bar
actually appealed the judge’s ruling” because Lynn
had also appealed the judge’s decision. She found
these statements to be a willful violation of section
6106.
We agree with the hearing judge’s analysis that
Hubbard’s statements were intentionally misleading
and violated section 6106 because they concealed and
were deceptive about Lynn’s disciplinary hearing and
appeal. Though his argument is not entirely clear to
us, Hubbard claims the judge ignored certain
documents admitted into the Ninth Circuit record in
coming to her conclusions: his January 30, 2015
Motion for Judicial Notice (providing a copy of the
NDC, an excerpt of the transcript from Lynn’s
disciplinary hearing, and a copy of the order
dismissing Mehton); Tulaphorn’s June 12, 2015
Request for Judicial Notice (providing a copy of the
hearing judge’s decision); and his June 22, 2015
response to Tulaphorn’s request. These documents
were not referenced in the rehearing en banc petition
and Hubbard cannot now rely on the evidence in the
record not brought to the court’s attention by him as a
path for him to avoid culpability for his otherwise
misleading statements. 16 An attorney is required to

16

We note that Hubbard argues that he cited to Tulaphorn’s
request in the rehearing petition as evidence of his disclosure
of the Review Department proceedings. His reference to a
docket entry as evidence of his disclosure is not sufficient.

22a
render complete and candid disclosures and never
seek to mislead. (Mosesian v. State Bar (1972) 8 Cal.3d
60, 66.) Acting otherwise constitutes moral turpitude
and warrants discipline. (Bach v. State Bar (1987) 43
Cal.3d 848, 855.) Consequently, we find Hubbard’s
statements violate section 6106.
We also find that Hubbard’s concealment and
deceptive statements also sought to mislead the Ninth
Circuit, thus violating section 6068, subdivision (d)
(count eight). (Di Sabatino v. State Bar (1980) 27
Cal.3d 159, 162–163 [attorney’s contention that his
failure to disclose material information is irrelevant,
when court should have known undisclosed
information, is “untenable” and supports violation of §
6068, subd. (d)].) These same statements also failed to
maintain the respect due the Ninth Circuit under
section 6068, subdivision (b) (count nine). (Mosesian v.
State Bar, supra, 8 Cal.3d at p. 66.)
2. Hubbard Misrepresented to the Ninth
Circuit OCTC’s Statements Made at Mehton
and Lynn’s Disciplinary Trial
Also in count seven, OCTC alleges that Hubbard
misrepresented to the Ninth Circuit that OCTC
admitted during Mehton’s and Lynn’s disciplinary
trial that charges would never have been brought if
Lynn had been given an opportunity to provide “a
response” at an evidentiary hearing by the district
court judge in the Vogel matter. 17 When OCTC
17

Hubbard argues that this allegation, because it does not
contain any quote of his from the petition for rehearing en

23a
dismissed the charges against Mehton at the
disciplinary trial, it stated, “those counts are
dismissed in the interest of justice . . . the reasoning
behind the dismissal of [Mehton’s] cases is that the
State Bar did not have information prior to . . . where
the State Bar might have chosen not to go forward on
those charges, had [the State Bar received] a
response.” The hearing judge found it was clear
OCTC’s statement regarding “a response” that had not
been received referred to the investigation of Lynn and
Mehton by the State Bar, and not an opportunity for a
response in an evidentiary hearing before the federal
district court, as Hubbard stated in the rehearing en
banc petition. We agree.
We need not go into detail about Hubbard’s
argument on this issue because the parties clearly
stipulated that OCTC used the word “response” to
mean the lack of one to the letters the OCTC
investigator sent to Lynn and Mehton, and it did not
banc, should be dismissed for failure to provide adequate
notice of the misconduct he had actually done. We decline to
dismiss it. From our reading, this allegation adequately
describes the event at Lynn’s disciplinary hearing,
specifically one statement of the OCTC prosecutor, and
OCTC’s belief that Hubbard used this statement in a
dishonest manner in the petition. In fact, his detailed
argument regarding this allegation belies his argument for
dismissal. Hubbard’s statement from the petition that
underlies OCTC’s allegation is, “The Court must grant this
Petition for Rehearing En Banc, as even the State Bar
[p]rosecutor admitted that . . . the district court’s charges of
professional misconduct and ethics violations would never
have been brought if [Lynn and Mehton] had had a chance to
respond.”

24a
refer to Hubbard and Vogel’s opportunity to have an
evidentiary hearing in district court. With such
stipulations in place, we find Hubbard’s statement in
the rehearing en banc petition intentional and
misleading and find him culpable of an act of moral
turpitude pursuant to section 6106. (In the Matter of
Maloney and Virsik, supra, 4 Cal. State Bar Ct. Rptr.
at p. 786.)
We also find that the same misrepresentation by
Hubbard to the Ninth Circuit in the rehearing en banc
petition establishes culpability under section 6068,
subdivision (d) (count eight, seeking to mislead a
judge) and section 6068, subdivision (b) (count nine,
failure to maintain respect due to courts and judicial
officers). (In the Matter of Moriarty, supra, 5 Cal. State
Bar Ct. Rptr. at p. 520; Mosesian v. State Bar, supra,
8 Cal.3d at p. 66.)
3. Hubbard Misrepresented that OCTC
Dismissed
Charges
Immediately
after
18
Brenden
Brownfield’s
“Unbelievable”
Testimony
Count seven additionally alleges that Hubbard
misrepresented to the Ninth Circuit in the petition for
rehearing en banc by stating “[Brenden] Brownfield’s
testimony was so unbelievable that, after he finished,
[OCTC] dismissed all of the charges based on his
outlandish accusations of discovery abuse and
manufacturing evidence!” The hearing judge found

18

Brendan Brownfield was an opposing counsel in the Vogel
matter who testified at Mehton and Lynn’s disciplinary trial.

25a
Hubbard’s
statement
to
misrepresentation. We agree.

be

a

deliberate

Hubbard’s claim that his statement was not one of
fact, but instead of argument, is baseless. OCTC did
not state it was dismissing charges against Mehton
due to Brownfield’s testimony and, in fact, OCTC did
not “[dismiss] all of the charges.” The disciplinary
charges against Lynn were fully litigated and he was
found culpable of moral turpitude. Hubbard’s omission
of these relevant facts created a false narrative. We
find that his misrepresentation was both material and
intentional because he sought to mislead the court and
secure an advantage by not unequivocally disclosing
Lynn’s misconduct, which constitutes moral turpitude
and violates section 6106. (Grove v. State Bar (1965)
63 Cal.2d 312, 315 [moral turpitude includes
concealment as well as affirmative misrepresentations
with no distinction to be drawn between “concealment,
half-truth, and false statement of fact”].) This same
misconduct also supports culpability findings that
Hubbard sought to mislead the Ninth Circuit under
section 6068, subdivision (d) (count eight) and that he
did not maintain the respect due the court under
section 6068, subdivision (b) (count nine).
4.
OCTC
Did
Not
Prove
Hubbard
Misrepresented
that
the
Terminating
Sanctions in the Vogel Matter Were Solely
Based on Discovery Violations
Count seven further alleges that Hubbard violated
section 6106 by falsely suggesting to the Ninth Circuit
that the terminating sanctions in the Vogel matter
were solely for discovery violations, when he knew

26a
that the sanctions were based on Lynn’s
misrepresentations in the MSJ. The district court’s
sanctions order was based on a finding that Lynn
“acted recklessly and in bad faith . . . and the most
logical conclusion to be drawn is that he intended to
deceive the defendant.” The hearing judge found
Hubbard culpable as charged. Upon our review of the
record, we determine that Hubbard did partially
disclose in the rehearing petition that the district
court found Lynn “participated in a pattern of
falsification of evidence that amounted to bad faith[.]”
Accordingly, we do not find that OCTC’s allegation is
supported by clear and convincing evidence in the
record. (Conservatorship of Wendland, supra, 26
Cal.4th at p. 552; See Ballard v. State Bar (1983) 35
Cal.3d 274, 291 [all reasonable doubts resolved in
favor of attorney].) For the same reasons, we decline
to assign culpability under section 6068, subdivision
(d) (count eight) or section 6068, subdivision (b) (count
nine).
5. Hubbard Misrepresented that Lynn Had a
Discipline-Free Record
The final allegation in count seven states that
Hubbard violated section 6106 by falsely suggesting to
the Ninth Circuit in the petition for rehearing en banc
that Lynn did not have a record of professional
discipline when, in fact, he had a final record of
discipline in the Southern District of California that
occurred in 2013. In the petition, Hubbard stated,
“[Lynn] has practiced law in California for more than
thirty-two years without any record of discipline.” The
hearing judge found Hubbard committed an act of
moral turpitude when he “spuriously suggested” that

27a
Lynn had no record of discipline at the time he wrote
the statement to the Ninth Circuit in 2016. We agree
with her finding. Hubbard argues his reference to a
docket entry following his statement, which points to
the hearing judge’s decision in 2015 that found Lynn
had committed professional misconduct, provides
sufficient notice for the Ninth Circuit to evaluate the
meaning of his statement. This argument is not
credible. As stated earlier, Hubbard has a duty to
render complete and candid disclosures to the court.
(In the Matter of Field, supra, 5 Cal. State Bar Ct.
Rptr. at p. 177.) Hubbard’s improper implication and
failure to clearly disclose relevant information to the
Ninth Circuit in the petition is a dishonest act of moral
turpitude in violation of section 6106.
For the same reasons, we also find Hubbard
culpable of seeking to mislead the Ninth Circuit, thus
violating section 6068, subdivision (d) (count eight),
and failing to maintain the respect due the court, thus
violating section 6068, subdivision (b) (count nine). (In
the Matter of Chesnut, supra, 4 Cal. State Bar Ct. Rptr.
at p. 174; In the Matter of Field, supra, 5 Cal. State
Bar Ct. Rptr. at p. 176.)
D. Count Ten: Failing to Maintain Respect Due
to Courts and Judicial Officers (§ 6068, subd.
(b))
In count ten of the NDC, OCTC charged that
Hubbard violated section 6068, subdivision (b), when
he attacked the integrity, fairness, and character of
United States District Court Judge Philip S. Gutierrez
in the petition for rehearing en banc “by falsely
claiming that Judge Gutierrez made rulings and

28a
findings that Judge Gutierrez knew were incorrect
and contrary to the evidence . . . .” In the petition,
Hubbard remarked on the district court judge’s
decision:
This isn’t a case where Judge Gutierrez did not
know we were innocent of the charges . . . he did.
The record shows that he knew that our positions
were firmly rooted in binding Ninth Circuit
precedent; knew that we had never manufactured
constitutional standing in an ADA lawsuit (ever); .
. . knew that Vogel had visited Tulaphorn’s
restaurant, which is located next to his brother’s
house, before the filing of the lawsuit and had firsthand knowledge of the facility; knew that Vogel’s
confusion regarding the actual date of that visit
was traced directly to a clerical error by his lawyers
(who not only took full responsibility for their
mistake, but worked diligently to correct the record
once the mistake was discovered); and knew that,
given an opportunity, we could have proven all
these facts at an evidentiary hearing. It did not
matter! The district judge was determined to find
that appellants had a history of mendacity, a
pattern of deception, and willfully suborned
perjury regardless of what the evidence showed;
and that is precisely what he did.
The hearing judge dismissed count ten by finding
Hubbard’s statements were not “directly disrespectful
of the district court judge” and insufficient evidence
supported the charge.

29a
OCTC argues the hearing judge’s dismissal should
be reversed, relying, in large part, on our prior opinion
in In the Matter of Anderson (Review Dept. 1997) 3
Cal. State Bar Ct. Rptr. 775 and the Supreme Court’s
decision in Ramirez v. State Bar (1980) 28 Cal.3d 402.
In Anderson, we adopted the Ninth Circuit’s approach
to this issue, as expressed in Standing Committee v.
Yagman (9th Cir. 1995) 55 F.3d 1430. As stated in
Anderson, in determining an attorney’s culpability
under section 6068, subdivision (b), for statements
made that may impugn the integrity of judicial
officers, we are required to first establish that the
statement is capable of being proved true or false, such
that it cannot be considered a statement of opinion. (In
the Matter of Anderson, supra, 3 Cal. State Bar Ct.
Rptr. at p. 786). Having determined the statement is
factual and not opinion, we then determine if it is
false, and, finally, if the false statement was made
knowingly or with a reckless disregard of the truth.
(Id. at p. 782.)
First, we find that these statements are considered
factual and not opinion, as they assert Hubbard’s
knowledge of what Judge Gutierrez thought and did.
Next, we determine if the statements were false. At a
minimum, we find that the first sentence and the last
sentence of OCTC’s excerpt from Hubbard’s petition,
as set forth in count ten, are false statements. At oral
argument, Hubbard asserted that OCTC did not prove
any of the statements false. We disagree and find that
OCTC did prove these sentences false. At trial, in
response to OCTC’s question regarding the evidence
he had to prove that his statements about the district
court judge were true, Hubbard stated that he had his
“personal knowledge.” We determine that Hubbard’s

30a
response reveals that he had only conjecture without
factual substantiation, which is sufficient to establish
that the statements were false and at a minimum
made with a reckless disregard of the truth. (See In the
Matter of Ramirez, supra, 28 Cal.3d at pp. 411–412
[“conjecture
without
factual
substantiation”
demonstrates false statement “made with reckless
disregard of the truth” sufficient to find culpability
under § 6068, subd. (b)].) 19 We therefore find
culpability on this count, as the Supreme Court did in
Ramirez. We reverse the hearing judge and find
Hubbard culpable of violating section 6068,
subdivision (b).
IV. AGGRAVATION AND MITIGATION
Standard 1.5 of the Rules of Procedure of the State
Bar, title IV, Standards for Attorney Sanctions for
Professional Misconduct 20 requires OCTC to establish
aggravating circumstances by clear and convincing
evidence. Standard 1.6 requires Hubbard to meet the
same burden to prove mitigation.

19

Regardless of her conclusion on this count, the hearing judge
found that Hubbard’s statements were “specious because
they purport to set forth the [district court] judge’s
knowledge, when instead they are . . . merely [by] his
‘personal knowledge,’ and also ‘patently misleading.’” (See
McKnight v. State Bar (1991) 53 Cal.3d 1025, 1032 [judge’s
factual findings afforded great weight]; Rules Proc. of State
Bar, rule 5.155(A).)

20

Further references to standards are to this source.

31a
A. Aggravation
1. Multiple Acts of Wrongdoing (Std. 1.5(b))
The hearing judge found this standard satisfied by
Hubbard’s eight misleading statements to different
courts and assigned significant weight. We agree the
standard applies, but assign moderate weight. (In the
Matter of Bach (Review Dept. 1991) 1 Cal State Bar
Ct. Rptr. 631, 646–647 [three instances of misconduct
considered multiple acts].)
2. Uncharged Misconduct (Std. 1.5(h))
Uncharged misconduct cannot serve as an
independent basis for discipline, but may be used as
an aggravating circumstance. (Edwards v. State Bar
(1990) 52 Cal.3d 28, 35–36.) The hearing judge did not
find Hubbard culpable under count ten. Instead, the
judge found uncharged moral turpitude because
Hubbard’s statements were patently misleading.
However, we found Hubbard culpable of violating
section 6068, subdivision (b), as alleged in count ten.
Accordingly, we do not adopt the judge’s finding of
uncharged misconduct.
3. Significant Harm to the Administration of
Justice (Std. 1.5(j))
The hearing judge found that Hubbard’s
misconduct harmed the administration of justice
through his repeated misrepresentations to multiple
courts and assigned significant weight. We disagree
and find that this circumstance has not been
established.
While
Hubbard
made
multiple
misrepresentations and a statement impugning the

32a
integrity of a federal judge, the record does not reveal
specific evidence that court time or resources were
expended as a result. (Cf. In the Matter of Hunter
(Review Dept. 1994) 3 Cal. State Bar Ct. Rptr. 63, 75,
79 [harm to administration of justice where attorney
committed multiple acts of misconduct resulting in
considerable court resources wasted].)
4. Indifference (Std. 1.5(k))
Indifference toward rectification or atonement for
the consequences of misconduct is an aggravating
circumstance. An attorney who fails to accept
responsibility for his actions and instead seeks to shift
responsibility to others demonstrates indifference and
lack of remorse. (In the Matter of Wolff (Review Dept.
2006) 5 Cal. State Bar Ct. Rptr. 1, 14.) The hearing
judge assigned “great weight” in aggravation for
Hubbard’s failure to appreciate the wrongfulness of
his misconduct. Rather than acknowledging any
wrongdoing, Hubbard insists on being exonerated,
maintaining that his statements made to the U.S.
Supreme Court and to the Ninth Circuit were honest,
accurate, and “completely truthful.” However, the
record makes it clear he engaged in multiple acts of
misconduct. 21 While the law does not require false
penitence, it does require that an attorney accept
responsibility for acts and come to grips with
culpability. (In the Matter of Katz (Review Dept. 1991)
1 Cal. State Bar Ct. Rptr. 502, 511.) Hubbard has not

21

We are also troubled that Hubbard told one witness, in
asking him to be a character witness, that “political interests
. . . want to see him discredited.”

33a
done this, which demonstrates his lack of insight. We
assign substantial weight to his indifference.
5. Lack of Candor (Std. 1.5(l))
The hearing judge found that Hubbard’s lack of
candor during his testimony and in the documentary
evidence at trial was a significant aggravating
circumstance. However, pursuant to the wording of
standard 1.5(l), lack of candor can only be established
from statements or acts that occur “during
disciplinary investigations or proceedings.” Here, the
judge identified only one instance where Hubbard
displayed a lack of candor in response to her asking
why, at the Ninth Circuit oral argument in the Vogel
matter, he did not mention any other attorneys
against whom the State Bar had taken action but only
discussed Mehton and the dismissal of his charges.
His response, that the judges would not let him, is
clearly not accurate when one reviews the video of the
Ninth Circuit argument. However, while we assign
aggravation for his lack of candor to the judge, we
instead assign moderate weight as it occurred only
once.
B. Mitigation
1. No Prior Discipline (Std. 1.6(a))
Mitigation is available where no prior record of
discipline exists over many years of practice, coupled
with present misconduct that is not likely to recur.
The hearing judge gave no mitigation credit for
Hubbard’s nearly 15 years of discipline-free practice.
Given
Hubbard’s
indifference,
the
multiple
misrepresentations in two different courts during

34a
2016, and his lack of candor in 2019, we cannot
conclude that his misconduct is aberrational or
unlikely to recur. (See Cooper v. State Bar (1987) 43
Cal. 3d 1016, 1029 [when misconduct is serious, long
record without discipline is most relevant when
misconduct is aberrational].) In fact, we agree with the
judge that future misconduct is “highly likely to
recur.” Nonetheless, given his years of discipline-free
practice, we assign limited mitigating weight for
Hubbard’s lack of prior discipline. (Cf. In the Matter of
Reiss (Review Dept. 2012) 5 Cal. State Bar Ct. Rptr.
206, 218 [no mitigation for 13-year discipline-free
record where attorney engaged in ten-year pattern of
dishonesty and serious misconduct and failed to accept
responsibility for wrongdoing].)
2. Candor and Cooperation with State Bar
(Std. 1.6(e))
Hubbard’s Stipulation with OCTC is a mitigating
circumstance to which the hearing judge assigned
moderate weight. We agree because, although the
Stipulation was comprehensive, Hubbard did not
admit culpability, and “more extensive weight in
mitigation is accorded those who, where appropriate,
willingly admit their culpability as well as the facts.”
(In the Matter of Johnson (Review Dept. 2000) 4 Cal.
State Bar Ct. Rptr. 179, 190.)
3. Extraordinary Good Character (Std. 1.6(f))
Hubbard may obtain mitigation for “extraordinary
good character attested to by a wide range of
references in the legal and general communities, who
are aware of the full extent of the misconduct.” The
hearing judge determined that Hubbard was entitled

35a
to nominal mitigation for his good character. Upon our
review of the record, we disagree.
Nine witnesses, including five attorneys, testified
at trial regarding Hubbard’s good character. (In the
Matter of Brown (Review Dept. 1993) 2 Cal. State Bar
Ct. Rptr. 309, 319 [serious consideration given to
attorneys’ testimony due to their “strong interest in
maintaining the honest administration of justice”].)
The other four witnesses included two former clients,
and two friends, one of whom works for a Hubbard
family-owned business. Each of the witnesses,
representing a broad spectrum of the community, had
a basic understanding of the charges against
Hubbard, except one person who was not an attorney.
(In re Brown (1995) 12 Cal.4th 205, 223 [mitigation
considered for attorney’s good character when
witnesses aware of misconduct].) The witnesses
attested to Hubbard’s intelligence, excellent skills as
an attorney, and his integrity, including his kindness
and trustworthiness. Further, several of the witnesses
have known him for lengthy periods of ten years or
more. Accordingly, we assign substantial mitigating
weight.
4. Community Service
Under Calvert v. State Bar (1991) 54 Cal.3d 765,
785, community service is a mitigating factor. The
hearing judge gave limited weight to Hubbard’s
volunteer efforts at his children’s school and pro bono
work he has done for five families affected by the
wildfires in Paradise, California. We also note that one
of the attorney character witnesses testified that
Hubbard recently has been an MCLE presenter. We

36a
therefore assign some mitigating weight to this
circumstance.
V. A ONE-YEAR ACTUAL SUSPENSION THAT
REQUIRES HUBBARD TO PROVE HIS
REHABILITATION AND FITNESS TO
PRACTICE LAW IS APPROPRIATE
DISCIPLINE
The purpose of attorney discipline is not to punish
the attorney, but to protect the public, the courts, and
the legal profession; to preserve public confidence in
the profession; and to maintain high professional
standards for attorneys. (Std. 1.1.) Our disciplinary
analysis begins with the standards. While they are
guidelines for discipline and are not mandatory, we
give them great weight to promote consistency. (In re
Silverton (2005) 36 Cal.4th 81, 91–92.) The Supreme
Court has instructed us to follow the standards
“whenever possible.” (In re Young (1989) 49 Cal.3d
257, 267, fn. 11.) We also look to comparable case law
for guidance. (See Snyder v. State Bar (1990) 49 Cal.3d
1302, 1310–1311.)

37a
Standard 2.11 applies as it specifically deals with
acts of moral turpitude. 22 The hearing judge
recommended discipline that included a one-year
actual suspension, which is in the range provided in
standard 2.11. In reaching this recommendation, the
judge relied on three cases: In the Matter of Dahlz
(Review Dept. 2001) 4 Cal. State Bar Ct. Rptr. 269; In
the Matter of Hertz (Review Dept. 1991) 1 Cal. State
Bar Ct. Rptr. 456; and In the Matter of Chesnut, supra,
4 Cal. State Bar Ct. Rptr. 166.
In Dahlz, the attorney received a one-year actual
suspension for failing to perform, failing to
communicate with a client, improperly withdrawing
from representation, and committing an act of moral
turpitude by misrepresenting a material fact to an
insurance adjuster. The attorney’s misconduct was
aggravated by multiple acts, one prior discipline,
client harm, and lack of candor on several occasions to
a State Bar investigator and the hearing judge. His

22

Standard 2.11 provides, “Disbarment or actual suspension is
the presumed sanction for an act of moral turpitude,
dishonesty, fraud, corruption, intentional or grossly
negligent misrepresentation, or concealment of a material
fact. The degree of sanction depends on the magnitude of the
misconduct; the extent to which the misconduct harmed or
misled the victim, which may include the adjudicator; the
impact on the administration of justice, if any; and the extent
to which the misconduct related to the member’s practice of
law.” Because we found Hubbard culpable for violating his
duties as an attorney under section 6068, subdivisions (b) and
(d), standard 2.12(a) applies and also provides that
disbarment or actual suspension is the presumed sanction for
those violations.

38a
misconduct was mitigated by pro bono activities.
In Hertz, the court recommended a two-year actual
suspension, along with a recommendation that the
attorney not be reinstated until he proved his
rehabilitation, fitness, and present learning and
ability to practice law under former standard 1.4(c)(ii)
(now standard 1.2(c)(1)). The attorney was found
culpable of trust account violations under former Rule
of Professional Conduct, rule 8-101 23 and also for
deceiving a superior court judge related to trust
account violations, thus violating section 6106, section
6068, subdivision (d), and former rule 7-105(1). In
aggravation, the attorney’s misconduct included
multiple acts; bad faith, dishonesty, and a persistent
refusal to account for trust funds; significant harm to
his client who incurred considerable attorney fees and
had to file a separate lawsuit to get recompense; harm
to the administration of justice; and lack of candor and
a pattern of engaging in “prolonged deceit” over a fiveyear period for nine misrepresentations to the
superior court, the Court of Appeal, a State Bar
investigator, and the opposing counsel and her client.
The attorney’s conduct was mitigated by significant
good character evidence and substantial pro bono and
community service.
Finally, in Chesnut, a case that recommended a
six-month actual suspension, an attorney was found
culpable of making misrepresentations to two judges
in a single matter, thus violating section 6068,

23

Further reference to rules are to this source.

39a
subdivision (d). 24 Aggravating weight was assigned for
lack of candor because he made an untruthful
statement during the Hearing Department trial, and
also for a prior record of discipline, which included a
violation of section 6068, subdivision (d).
While the hearing judge concluded that Hubbard’s
misconduct was narrower in range than in Dahlz or
Hertz, she determined that a recommendation of a
one-year actual suspension, along with the
requirement that Hubbard satisfy standard 1.2(c)(1),
was necessary given the aggravating factors and the
likelihood of future misconduct. OCTC agrees with
this analysis and urges us to affirm the judge’s
recommendation.
Hubbard argues that, if found culpable, In the
Matter of Jeffers (Review Dept. 1994) 3 Cal. State Bar
Ct. Rptr. 211 or Drociak v. State Bar (1991) 52 Cal.3d
1085 should guide us in recommending discipline no
greater than that given to those attorneys.25 25 We
find both cases easily distinguishable as each was
found culpable of substantially less misconduct than
Hubbard’s multiple misrepresentations to two
different courts and impugning the integrity of a
federal judge. In Jeffers, the attorney received
probation with no actual suspension for making a

24

The same misconduct in Chesnut was also found to violate
section 6106, but no additional disciplinary weight was given
to that culpability finding.

25

Hubbard has also argued for exoneration; however, because
we have found culpability, dismissal is not appropriate.

40a
misrepresentation to a superior court judge and for
not attending a hearing to which he was ordered. In
Drociak, the attorney received 30 days’ actual
suspension for making misrepresentations to the
opposing party by twice attaching a dead client’s
presigned verification to discovery documents, which
was aggravated by his admission that he had other
clients sign blank verifications.
After considering the case law, we determine
Chesnut and Hertz are similar to Hubbard’s record of
misconduct and establish the low and high ends of the
appropriate discipline range to recommend. Dahlz is
insufficiently analogous to guide us as the facts and
misconduct underlying the discipline recommendation
in Dahlz are very different than in this case.
Hubbard’s misconduct is more serious than that of the
attorney in Chesnut. He is culpable of three separate
instances of moral turpitude for misrepresentation
along with an additional act of failing to maintain
respect due to courts and judicial officers, which,
under the discipline standards, is at the same level of
seriousness as moral turpitude. Hubbard seems to
argue his misconduct is not as serious as in Chesnut
because that attorney had a prior discipline for
engaging in the same misconduct a second time. We
disagree.
We agree with the hearing judge that the extent of
the misconduct in Hertz is greater than Hubbard’s.
While only culpable for one violation of both sections
6106 and 6068, subdivision (d), along with a rule
violation, the gravamen of Hertz’s case was the nine
acts of deceit over five years. Those circumstances
established the need to recommend a two-year actual

41a
suspension, along with a requirement that the
attorney prove his rehabilitation, fitness, and present
learning and ability to practice law.
Zealous advocacy is a hallmark of our legal system.
However, we find Hubbard’s actions went beyond
zealous advocacy and fell short of his ultimate duty to
be truthful and respectful to the courts. A substantial
period of discipline in this case is called for, as, under
the factors described in standard 2.11 to determine the
degree of discipline to recommend, the magnitude of
his misconduct is serious and his acts of misconduct
occurred in the practice of law. We determine his
aggravation is slightly greater than his mitigation
given the circumstances established. Thus, we
recommend a one-year actual suspension, as the
hearing judge did, which is in the middle of the
disciplinary range set forth in standard 2.11.
Even though this is his first disciplinary matter,
we also recommend that Hubbard be required to prove
his rehabilitation, fitness, and present learning and
ability to practice law in a State Bar Court proceeding
pursuant to standard 1.2(c)(1). While his acts of
misconduct occurred in 2016, his lack of candor in
2019 26 and his complete indifference now make this
additional requirement necessary. This further
condition will impress upon Hubbard the seriousness
of his actions, and it will protect the public, the courts,
and the legal profession by providing him the

26

The Supreme Court has said that lack of candor may be
considered more serious than the misconduct itself. (In the
Matter of Dahlz, supra, 4 Cal State Bar Ct. Rptr at p. 282.)

42a
opportunity to prove that he has gained insight into
his misconduct before he returns to the practice of law.
VI. RECOMMENDATION
For the foregoing reasons, we recommend that
Scottlynn J. Hubbard IV be suspended from the
practice of law for two years, that execution of that
suspension be stayed, and that Hubbard be placed on
probation for two years on the following conditions:
1. He must be suspended from the practice of law
for a minimum of the first year of his probation and
until he provides proof to the State Bar Court of his
rehabilitation, fitness to practice and learning and
ability in the general law. (Rules Proc. of State Bar,
tit. IV, Stds. for Atty. Sanctions for Prof.
Misconduct, std. 1.2(c)(1).)
2. He must comply with the provisions of the State
Bar Act, the Rules of Professional Conduct, and all
of the conditions of his probation.
3. Within 30 days after the effective date of the
Supreme Court order imposing discipline in this
matter, he must (1) read the California Rules of
Professional Conduct (Rules of Professional
Conduct) and Business and Professions Code
sections 6067, 6068, and 6103 through 6126, and
(2) provide a declaration, under penalty of perjury,
attesting to his compliance with this requirement,
to the State Bar’s Office of Probation in Los
Angeles (Office of Probation) with his first
quarterly report.

43a
4. Within 30 days after the effective date of the
Supreme Court order imposing discipline in this
matter, he must make certain that the State Bar
Attorney Regulation and Consumer Resources
Office (ARCR) has his current office address, email
address, and telephone number. If he does not
maintain an office, he must provide the mailing
address, email address, and telephone number to
be used for State Bar purposes. He must report, in
writing, any change in the above information to
ARCR, within ten days after such change, in the
manner required by that office.
5. Within 15 days after the effective date of the
Supreme Court order imposing discipline in this
matter, he must schedule a meeting with his
assigned probation case specialist to discuss the
terms and conditions of his discipline and, within
30 days after the effective date of the court’s order,
must participate in such meeting. Unless
otherwise instructed by the Office of Probation, he
may meet with the probation case specialist in
person or by telephone. During the probation
period,
he
must
promptly
meet
with
representatives of the Office of Probation as
requested by it and, subject to the assertion of
applicable privileges, must fully, promptly, and
truthfully answer any inquiries by it and provide
to it any other information requested by it.
6. During his probation period, the State Bar Court
retains jurisdiction over him to address issues
concerning compliance with probation conditions.
During this period, he must appear before the
State Bar Court as required by the court or by the

44a
Office of Probation after written notice mailed to
his official membership address, as provided above.
Subject to the assertion of applicable privileges, he
must fully, promptly, and truthfully answer any
inquiries by the court and must provide any other
information the court requests.
7. Quarterly and Final Reports
a. Deadlines for Reports. He must submit
written quarterly reports to the Office of
Probation no later than each January 10
(covering October 1 through December 31 of the
prior year), April 10 (covering January 1
through March 31), July 10 (covering April 1
through June 30), and October 10 (covering
July 1 through September 30) within the period
of probation. If the first report would cover less
than 30 days, that report must be submitted on
the next quarter date and cover the extended
deadline. In addition to all quarterly reports, he
must submit a final report no earlier than ten
days before the last day of the probation period
and no later than the last day of the probation
period.
b. Contents of Reports. He must answer,
under penalty of perjury, all inquiries contained
in the quarterly report form provided by the
Office of Probation, including stating whether
he has complied with the State Bar Act and the
Rules of Professional Conduct during the
applicable quarter or period. All reports must
be: (1) submitted on the form provided by the
Office of Probation; (2) signed and dated after

45a
the completion of the period for which the report
is being submitted (except for the final report);
(3) filled out completely and signed under
penalty of perjury; and (4) submitted to the
Office of Probation on or before each report’s
due date.
c. Submission of Reports. All reports must be
submitted by: (1) fax or email to the Office of
Probation; (2) personal delivery to the Office of
Probation; (3) certified mail, return receipt
requested, to the Office of Probation
(postmarked on or before the due date); or (4)
other tracked-service provider, such as Federal
Express or United Parcel Service, etc.
(physically delivered to such provider on or
before the due date).
d. Proof of Compliance. He is directed to
maintain proof of his compliance with the above
requirements for each such report for a
minimum of one year after either the period of
probation or the period of his actual suspension
has ended, whichever is longer. He is required
to present such proof upon request by the State
Bar, the Office of Probation, or the State Bar
Court.
8. Within one year after the effective date of the
Supreme Court order imposing discipline in this
matter, he must submit to the Office of Probation
satisfactory evidence of completion of the State Bar
Ethics School and passage of the test given at the
end of that session. This requirement is separate
from any Minimum Continuing Legal Education

46a
(MCLE) requirement, and he will not receive
MCLE credit for attending this session. If he
provides satisfactory evidence of completion of the
Ethics School after the date of this Opinion but
before the effective date of the Supreme Court’s
order in this matter, he will nonetheless receive
credit for such evidence toward his duty to comply
with this condition.
VII. PROFESSIONAL RESPONSIBILITY
EXAMINATION
We further recommend that Hubbard be ordered to
take and pass the Multistate Professional
Responsibility Examination administered by the
National Conference of Bar Examiners within one
year of the effective date of the Supreme Court order
in this matter, or during the period of his actual
suspension, whichever is longer, and to provide
satisfactory proof of such passage to the Office of
Probation within the same period. Failure to do so may
result in an automatic suspension. (Cal. Rules of
Court, rule 9.10(b).) If he provides satisfactory
evidence of the taking and passage of the above
examination after the date of this opinion but before
the effective date of the Supreme Court’s order in this
matter, he will nonetheless receive credit for such
evidence toward his duty to comply with this
requirement.
VIII. RULE 9.20
We further recommend that Hubbard be ordered to
comply with the requirements of rule 9.20 of the
California Rules of Court, and to perform the acts
specified in subdivision (a) and (c) of that rule within

47a
30 and 40 days, respectively, after the effective date of
the Supreme Court order imposing discipline in this
matter. Failure to do so may result in disbarment or
suspension.
IX. COSTS
We further recommend that costs be awarded to
the State Bar in accordance with Business and
Professions Code section 6086.10, and are enforceable
both as provided in Business and Professions Code
section 6140.7 and as a money judgment. Unless the
time for payment of discipline costs is extended
pursuant to subdivision (c) of section 6086.10, costs
assessed against an attorney who is actually
suspended or disbarred must be paid as a condition of
reinstatement or return to active status.
McGILL, J.
WE CONCUR:
PURCELL, P. J.
HONN, J.

48a
__________
APPENDIX D
__________

STATE BAR COURT OF CALIFORNIA
HEARING DEPARTMENT
SAN FRANCISCO
Nos. 16-O-10871-MC (16-O-14863)

IN THE MATTER OF
SCOTTLYNN J. HUBBARD IV
STATE BAR NO. 212970

Filed June 27, 2019
DECISION
Introduction
Respondent Scottlynn J. Hubbard IV is charged in
two matters with making misrepresentations to
several courts and attacking the integrity of a judge.
The court finds, by clear and convincing evidence, that
Respondent is culpable of three counts involving moral
turpitude by making misleading statements to courts,
plus an additional uncharged act of making a
misleading statement to a court. In view of

49a
Respondent's serious misconduct and the evidence in
aggravation and mitigation, the court recommends
that Respondent be suspended for two years,
execution of that suspension be stayed, he be placed
on probation for two years, and he be actually
suspended for one year and until he shows proof of his
rehabilitation, fitness to practice, and present
learning and ability in the general law.
Significant Procedural History
The Office of Chief Trial Counsel of the State Bar
(OCTC) filed a notice of disciplinary charges (NDC) in
this matter on August 7, 2018. On September 5,
Respondent filed a response. On March 19, 2019, the
parties filed a comprehensive stipulation as to facts.
The trial in this matter was held on March 19, 20, and
21. Both parties filed closing briefs on April 2 and the
matter was submitted for decision that same date.
Findings of Fact and Conclusions of Law
Jurisdiction
Respondent was admitted to the practice of law on
May 31, 2001, and has since been a licensed attorney
of the State Bar of California at all times.
In general, the court does not find Respondent to
be a credible witness. As set forth in the aggravation
section, Respondent failed to be truthful with this
court while defending his misrepresentations to other
courts.

50a
Background Facts
The facts in this case arise from Respondent's
defense of his father, Lynn Hubbard III (Hubbard), an
attorney licensed in California, in Hubbard's
disciplinary proceedings before the U.S. District Court
for the Southern District of California and the State
Bar of California. Since Respondent was admitted to
practice law, he has shared a law office with his father
and their practice is focused on representing plaintiffs
alleging violations of the Americans with Disabilities
Act (ADA). Because Respondent's actions arose from
defending Hubbard's misconduct, it is necessary to
recite the facts surrounding Hubbard's disciplinary
proceedings.
Plaza Bonita Matter
In 2009, Hubbard filed an ADA action, Hubbard v.
Plaza Bonita, LP et al., case No. 09-CV-1581 (Plaza
Bonita), in the Southern District of California on
behalf of his mother, Barbara Hubbard, against
several defendants. Respondent was named in the
caption of the complaint and was also listed as a lead
attorney on the case. The matter settled and shortly
after, plaintiff Barbara Hubbard passed away.
Hubbard did not disclose this fact to the defendants.
Approximately a month after his mother passed,
Hubbard presented defendants with settlement
agreements with signatures written as “Barbara
Hubbard,” which were not the plaintiff's signature.
On June 13, 2011, the magistrate judge issued an
order finding that Hubbard, or someone at his
direction, signed his mother's name on the settlement
agreements. The court also found that Hubbard,

51a
recklessly and in bad faith, misled and concealed facts
regarding his mother's death and the origin of the
signatures from the parties and the court. The
magistrate judge ordered Hubbard to pay monetary
sanctions to opposing counsel. The court also referred
the matter to the Southern District's Standing
Committee for Discipline (Discipline Committee) 1 and
ordered that Hubbard's conduct be reported to the
State Bar of California.
It is undisputed that Respondent was aware of the
magistrate judge's June 13, 2011 order. On behalf of
Hubbard, Respondent filed an objection to this order.
The district judge overruled the objection on
November 29, 2011. A year later, the magistrate judge
ordered Hubbard to pay a specified amount to
opposing counsel as sanctions for his misconduct. 2
Respondent appealed the order of monetary
sanctions to the Ninth Circuit. On November 12, 2015,
the Ninth Circuit affirmed the sanctions and held: “On
this record, the district court's finding that Hubbard
acted recklessly and in bad faith was not clearly
erroneous. Any rational attorney representing a
plaintiff in an ADA access case would know that if his
client died, the defendants would want to know about
it, especially before signing a settlement agreement
that promised prospective relief. And by sending the
defendant an agreement after his mother's death that

1

Members of the Discipline Committee are appointed by the
Southern District to investigate disciplinary matters.

2

The district judge later reduced the amount.

52a
purported to contain her signature when it was not in
fact her signature, Hubbard created the impression
that she was still alive. Hubbard provides no coherent
innocent explanation for this conduct, and the most
logical conclusion to be drawn is that he intended to
deceive the defendant. Such conduct rises to the level
of recklessness and bad faith.”
Respondent received a copy of this decision and
subsequently petitioned the Ninth Circuit for a
rehearing en bane on the sanctions against Hubbard.
Respondent ultimately appealed the sanctions to the
United States Supreme Court in June 2016. In his
petition for writ of certiorari (petition for writ) to the
Supreme Court, Respondent stated that “[t]hroughout
[his] forty-year career, Hubbard has never . . . never ...
been found to have committed professional
misconduct . . . . “ (Italics in original.) At the time
Respondent submitted this petition, he knew that in
February 2013, the Southern District of California
had disciplined Hubbard for professional misconduct,
as discussed below. Respondent also stated in the
petition for writ that “[e]verything that Hubbard said
in this matter was 100% true, 100% of the time; and
there is absolutely no evidence that he fraudulently
concealed anything from anyone.”
In August 2012, the Discipline Committee began
disciplinary
proceedings
alleging
professional
misconduct against Hubbard. In December 2012, the
district court held a disciplinary bench trial and
Respondent was present. On February 4, 2013, the
district judge issued the Findings of Fact and
Conclusions of Law and a copy was served on
Respondent that same day. Hubbard was suspended

53a
from the practice of law in the Southern District for
one year. Respondent appealed the finding of
professional misconduct to the Ninth Circuit, which
dismissed the appeal. The Ninth Circuit also
reciprocally suspended Hubbard.
Vogel Matter
On January 23, 2013, Hubbard filed an ADA
complaint in Vogel v. Tulaphorn, Inc. dba
McDonald's# 10746; McDonald's Corp., case No. 13CV-00464 (Vogel) in the U.S. District Court for the
Central District of California on behalf of a disabled
person who alleged that he encountered barriers at a
restaurant. In discovery, Hubbard's office provided the
defendant with a receipt of a purchase and five
photographs taken on plaintiff's purported visit to the
restaurant. In June 2013, the defendant deposed the
plaintiff who confirmed that the receipt and the
photographs were from his own visit to the restaurant.
In August 2013, Hubbard filed a motion for
summary judgement (MSJ) on behalf of the plaintiff.
Attached to the MSJ was a declaration from the
plaintiff in which he again swore under penalty of
perjury, that he personally received the receipt when
he made a purchase from the restaurant on the date
in question. Hubbard attached the receipt and the
photographs to the MSJ.
Shortly after the MSJ was filed, the defendant
disclosed to Hubbard that there was videotape
evidence that it was not the plaintiff who had visited
the restaurant on the relevant date, but Hubbard and
a female companion. The videotape further showed
that it was the female companion, and not the

54a
plaintiff, who purchased a drink and obtained the
receipt. The defendant filed a motion for terminating
sanctions and attorney's fees.
On November 4, 2013, District Judge Phillip
Gutierrez held a hearing on the motion. The judge
denied the plaintiff's request for an evidentiary
hearing, explaining in his findings, “[a]t hearing,
Counsel requested an evidentiary hearing to allow
Plaintiff to appear before the Court. However, the
Court sees no merit in conducting an additional
hearing because Counsel conceded that Plaintiff
would merely reiterate facts and arguments already
contained in the Opposition brief currently before the
Court.” The judge granted the motion for terminating
sanctions and ultimately awarded attorney's fees for
over $75,000.
Respondent appealed the order to the Ninth
Circuit. On February 4, 2016, oral argument was held
before the Ninth Circuit and the following exchange
took place:
Judge Milan Smith: Has the State Bar taken any
action in connection with the attorneys in this
matter?
Scott Hubbard: With respect to the attorney
responsible for the deposition ... uh ... the
discovery-related abuses, as I indicated in our
reply brief…

55a
Judge Smith: What happened? 3
Scott Hubbard: While it happened, all of this ...
Judge Smith: No, I mean, what did the State Bar
do?
Scott Hubbard: Oh, the State Bar dismissed in the
interests of justice, their words. Dismissed all the
charges against him.
Judge Smith: Any of the other attorneys?
Scott Hubbard: That was the only attorney.
Judge Smith: The only one?
Scott Hubbard: Yes.
On March 2, 2016, Respondent filed a petition for
rehearing en bane with the Ninth Circuit (petition for
rehearing.) As discussed below, OCTC prosecuted
Hubbard for alleged misconduct in the Plaza Bonita
and Vogel matters. OCTC also charged Hubbard's
associate, Khushpreet Mehton, for alleged misconduct
in the Vogel matter. In the petition for rehearing,
Respondent stated: “The State Bar of California ...
prosecuted Hubbard and Mehton for professional
misconduct and ethics violations.” In the very next

3

OCTC and Respondent stipulated to the above testimony
with the exception of one portion. The parties disagree
whether Judge Smith said: “While it happened?” or “What
happened?” The court does not find this distinction relevant
in the context of the exchange.

56a
sentence, Respondent stated: “The results of that
prosecution [were] ... the prosecutor dismissed all of
the charges based on ... accusations of discovery abuse
and manufacturing evidence.” (Italics in original.)
Respondent never stated that Hubbard had been
found culpable of professional misconduct and
disciplined by the hearing judge of the State Bar
Court. Respondent also stated in the petition for
rehearing that (1) OCTC admitted that the charges
would never have been brought if Hubbard and
Mehton had a chance to respond to the Vogel district
court's concerns in an evidentiary hearing; (2) OCTC
dismissed charges against Mehton immediately after
Brendan Brownfield, opposing counsel in the Vogel
matter, testified because his testimony was so
unbelievable; (3) the monetary sanctions in Vogel were
imposed solely for discovery violations; and (4)
Hubbard “has practiced law in California for more
than thirty-two years without any record of
discipline.”
Hubbard's State Bar Discipline
In May 2014, OCTC filed three separate Notices of
Disciplinary Charges against Hubbard regarding the
finding of professional misconduct in the Plaza Bonita
matter, failure to report judicial sanctions in a
separate case, and the misconduct in the Vogel matter.
OCTC also filed an NDC against Hubbard's associate,
Mehton, for actions in the Vogel matter. The matters
were consolidated for trial. On the first day of trial,
Hubbard stipulated that he was culpable of willfully
violating Business and Professions Code section
6068(o)(3) for failing to timely notify the State Bar of

57a
judicial sanctions. 4
At trial, a former OCTC investigator testified that,
during the investigation, he sent letters to Mehton and
Hubbard regarding allegations of misconduct, but
never received a formal response from their attorney.
Mehton and Hubbard testified that they did not know
whether their counsel had provided a formal response.
During trial on October 1, 2014, Brownfield,
opposing counsel in the Vogel matter, testified. On
October 3, OCTC recalled Mehton. With Mehton as its
last witness, OCTC concluded its case-in-chief. After a
break, OCTC dismissed the case against Mehton.
OCTC referenced a “response” when moving for
dismissal against Mehton which was a reference to
Hubbard and Mehton's response to the letters the
OCTC investigator sent. “Response” did not refer to an
opportunity for Hubbard to respond to the motion for
terminating sanctions through an evidentiary hearing
in the district court. OCTC did not dismiss any
charges against Hubbard.
On February 18, 2015, the State Bar Court
Hearing Department issued a decision and
recommendations, finding Hubbard culpable of
professional misconduct. Pursuant to his stipulation,
the court found that Hubbard's failure to timely report
a sanctions order constituted a willful violation of
section 6068(o)(3). With respect to the Plaza Bonita
matter, the court found that Hubbard's “conduct

4

All further statutory references are to the Business and
Professions Code unless otherwise indicated.

58a
violated, at a minimum, the prohibitions of section
6106; section 6068 subsection (d); and [California
Rules of Professional Conduct] rules 5-200 and 5-220.”
Finally, the court found that Hubbard's conduct in the
Vogel matter “constituted an act of moral turpitude
and a willful violation of section 6106.”
The court recommended that Hubbard be
suspended from the practice of law for two years;
execution of that suspension stayed; and Hubbard be
placed on probation for three years, with a one-year
actual suspension, among other recommendations.
Respondent received a copy of this decision and both
Hubbard and the State Bar appealed to the Review
Department. On December 22, 2015, at Hubbard's
request, the Review Department abated the appeal
pending the Ninth Circuit's decision on Hubbard's
appeal of the terminating sanctions in the Vogel
matter.
Conclusions
Count One - Moral Turpitude - False Statements
to United States Supreme Court (§6106)
Section 6106 provides that “[t]he commission of
any act involving moral turpitude, dishonesty or
corruption, whether the act is committed in the course
of his relations as an attorney or otherwise, and
whether the act is a felony or misdemeanor or not,
constitutes a cause for disbarment or suspension.” The
NDC alleges that Respondent engaged in acts
involving moral turpitude by making two misleading
statements in his June 2016 petition for writ to the
United States Supreme Court.

59a
Count One (a)
Count One first alleges that Respondent sought to
mislead the Court through his statement:
“Throughout this forty-year career, [Respondent's
father Lynn] Hubbard has never ... never … been
found to have committed professional misconduct … .”
(Italics in original.)
Respondent, who emphatically stands by the
statement above, argues that this was merely an
introduction to a discussion of misconduct.
Respondent states that he meant to convey that
Hubbard was not found guilty of misconduct until
opposing counsel made accusations. The court
squarely rejects this argument. The court has
carefully reviewed Respondent's petition for writ and
there is no mention of the multiple, conclusive findings
of professional misconduct by Hubbard. Respondent
merely states that an opposing party had “accused”
Hubbard of misrepresentation and breaching his
professional duties. He also includes a cursory
footnote, stating that the Plaza Bonita district court
judge found Hubbard “may have” violated various
statutes and rules. (Italics in original.) The inclusion
of this footnote, but the omission of all the other
disciplinary findings, can only have been done to
mislead the Supreme Court.
Importantly, at the time he submitted this petition,
there is no doubt that Respondent was fully aware
that in February 2013, the Southern District of
California had disciplined Hubbard for professional
misconduct. Hubbard was suspended for one year for
his “intentionally deceptive and misleading” conduct.

60a
The Ninth Circuit
Hubbard.

also

reciprocally suspended

There is no doubt that Respondent was fully aware
that in 2014, Hubbard had admitted to professional
misconduct in the State Bar Court by stipulating to
culpability for failure to report judicial sanctions.
There is no doubt that Respondent was fully aware
that in 2015, the State Bar Court found Hubbard
culpable of professional misconduct, including moral
turpitude, in the Plaza Bonita and Vogel matters.
As OCTC points out, at the time Respondent made
this statement in 2016, Hubbard, who was admitted
to practice in 1976, had been practicing law for 40
years. Each judicial determination of misconduct
detailed above was made in previous years. Moreover,
Respondent wrote in the present tense. The petition
begins with “Lynn Hubbard III has been practicing
law for almost forty years. He has filed thousands of
ADA lawsuits … .” (Italics added.) Respondent
continues in the present tense, “Throughout this fortyyear career, Hubbard has never . . . been found to have
committed professional misconduct … .” (Italics
added.) There is no conclusion other than Respondent
wanted to deceive the Supreme Court into believing
that, up to the point of filing the petition for writ,
Hubbard had never been found to have committed
professional misconduct.
Count One (b)
Second, Count One alleges that Respondent sought
to mislead the Supreme Court in the petition for writ
through the following statement: “Everything that
Hubbard said in this matter was 100% true, 100% of

61a
the time; and there is absolutely no evidence that he
fraudulently concealed anything from anyone.
Pet.App. 112a-128a, & 161a-178a. More importantly,
… he did not come close to (much less cross) the line of
professional misconduct, unethical behavior, bad
faith, or even recklessness. Ibid. In fact, after eight
years of persecution, no one - not Peters [opposing
counsel], not the magistrate, not two district judges,
not the State Bar of California, not even the Ninth
Circuit panel - has identified what duty Hubbard
supposedly violated.” (Italics in original.)
Respondent contends that these statements were
merely arguments and were not intended to be
considered statements of fact. However, after
reviewing the record, the court concludes that the
statements as set forth are deceptive as multiple
courts had specifically identified the professional
duties violated by Hubbard. As early as 2011, the
Southern District found that Hubbard had violated his
duty of candor. In 2013, Hubbard was disciplined and
suspended by the Southern District of California for
“unprofessional conduct that violates ABA model rules
3.3, 4.l (a), 7.1, and 8.; California Rules of Professional
Conduct 5-200 and 5-220; and State Bar Act sections
6101, 6068(b), and 6068(d) ... [and] Civil Local Rule
83.4.” In 2014, Hubbard admitted to professional
misconduct by stipulating to culpability for failure to
report judicial sanctions in willful violation of section
6068(0)(3). In 2015, the State Bar Court found that
Hubbard had violated multiple provisions of the
Business and Professions Code as well as the former
Rules of Professional Conduct.

62a
The court concludes OCTC has met its burden as
to all of the alleged misleading statements in this
count by clear and convincing evidence. Respondent
intentionally committed acts involving moral
turpitude by making the misrepresentations in the
petition for writ in willful violation of section 6106.
Counts Two and Three - Seeking to Mislead a
Court (§6068(d)) and Failing to Maintain
Respect Due to Courts (§ 6068(h))
The facts alleged to support the violations in
Counts Two and Three are the same as those alleged
in Count One, and therefore the charges in these two
counts are duplicative. The court dismisses Counts
Two and Three with prejudice. (Bates v. State Bar
(1990) 51 Cal.3d 1056, 1059-1060 [Little, if any,
purpose is served by duplicative allegations of
misconduct]; In the Matter of Romano (Review Dept.
2015) 5 Cal. State Bar Ct. Rptr. 391, 397.)
Count Four - Moral Turpitude - False Statements
to Ninth Circuit During Oral Argument in Vogel
Case (§6106)
In Count Four, OCTC alleges that Respondent
committed acts involving moral turpitude by
concealing from the Ninth Circuit during oral
argument that (1) after a disciplinary trial in the State
Bar Court, a hearing judge had found Hubbard
culpable of acts involving moral turpitude for his
conduct in the Vogel case; and (2) Hubbard's appeal of
the hearing judge's finding was pending before the
State Bar Court Review Department. The NDC
alleges that Respondent created the false impression
in response to questioning at oral argument that

63a
OCTC had charged only one attorney with misconduct
in the Vogel case and that the charges against that one
attorney had been dismissed. Respondent contends
that he responded to the Ninth Circuit judge's
questions truthfully at all times.
It is clear from the exchange set forth in the
recitation of facts that the Ninth Circuit judge was
inquiring at the oral argument about all attorneys
subject to discipline. The judge asked Respondent:
“Has the State Bar taken any action in connection
with the attorneys in this matter?” Respondent only
answered with respect to Mehton and not Hubbard.
Even if the court gives Respondent the benefit of the
doubt, that he was beginning by answering about
Mehton and was then intending to discuss Hubbard,
Respondent never clarified, despite having multiple
opportunities. In reviewing the transcript, the
admission of which Respondent stipulated to, and the
video of the oral argument, the Ninth Circuit judge
next asked Respondent “[a]ny of the other attorneys?”
and then again “[t]he only one?”
When examined by this court at trial, Respondent
was not truthful in his testimony. When this court
asked Respondent if he discussed the second attorney,
Hubbard, at the oral argument, Respondent stated
that the Ninth Circuit would not allow him to do so.
As shown above, this is not true.
The court finds that Respondent intentionally
allowed the Ninth Circuit panel to conclude that
OCTC had dismissed proceedings against the one and
only attorney being disciplined. Respondent also failed
to make clear that Hubbard was appealing the State

64a
Bar Court hearing judge's decision, which found him
culpable of multiple counts of misconduct. Under
these circumstances, Respondent is culpable of
engaging in an act of moral turpitude by intentionally
misleading the Ninth Circuit during oral argument in
willful violation of section 6106.
Counts Five and Six - Seeking to Mislead a Court
(§6068(d)) and Failing to Maintain Respect Due
to Courts (§ 6068(b))
As with Counts Two and Three, the court
determines that the charges set forth in Counts Five
and Six are duplicative of Count Four. These charges
are dismissed with prejudice. (Bates ·v. State Bar,
supra, 5 1 Cal.3d at pp. 1059-1 060; In the Matter of
Romano, supra, 5 Cal. State Bar Ct. Rptr. at p. 397.)
Count Seven - Moral Turpitude - False
Statements to Ninth Circuit in Petition for
Rehearing in Vogel Case (§61 06)
In Count Seven, Respondent is charged with
engaging in acts involving moral turpitude by making
several misleading statements to the Ninth Circuit in
his Vogel petition for rehearing.
Count Seven (a)
First, Count Seven alleges that Respondent
concealed in the petition for rehearing that Hubbard
had been found culpable of professional misconduct
and disciplined by the hearing judge of the State Bar
Court. As noted previously, Respondent stated in the
petition for rehearing: “The State Bar of California . .
. prosecuted Hubbard and Mehton for professional

65a
misconduct and ethics violations.” In the very next
sentence, Respondent stated: “The results of that
prosecution [were] . . . the prosecutor dismissed all of
the charges based on . . . accusations of discovery
abuse and manufacturing evidence.” (Italics in
original.) In the first sentence, Respondent discussed
Hubbard and Mehton. In the second sentence, he only
discussed Mehton and only the outcome of the case as
to him. Throughout the petition, Respondent
oscillated between discussions of charges against
Hubbard and the outcome of the disciplinary
proceeding as to Mehton. The court concludes that this
play of words is deliberate and misleading,
constituting a willful violation of section 6106.
In another instance of deception, Respondent
stated in his petition for rehearing that “Hubbard's
success was so overwhelming that the State Bar
actually appealed the judge's ruling.” (Italics in
original.) Yet Hubbard, through Respondent, also filed
an appeal because he was found culpable of multiple
acts of misconduct. As Respondent admits at trial, at
times in the petition he only talked about Mehton, at
times his father, and at times his law firm. This
creates a record that is misleading to an objective
reader.
Although Respondent asserts that the hearing
judge's decision was on appeal and therefore not final,
that fact does not change Respondent's concealment of
the hearing judge's determination that Hubbard was
culpable of misconduct. Respondent could easily have
disclosed the culpability determination and then
stated that it was on appeal.

66a
Respondent also argues that accusations regarding
discovery abuse were dismissed by State Bar Court,
but that is untrue. The hearing judge found Hubbard
culpable of acts involving moral turpitude for his filing
of the MSJ, which included the false discovery
information.
Count Seven (b)
Second, Count Seven alleges that Respondent
misrepresented to the Ninth Circuit that, in the
Hubbard matter, OCTC admitted that disciplinary
charges would never have been brought if Hubbard
had an evidentiary in Vogel. Respondent contends
that his interpretation of OCTC’s statements was
correct, or at least reasonable. However, it is clear that
OCTC was referring there to a response to the
investigation of the State Bar matter, and not an
evidentiary hearing before the district court.
Respondent's deceptive statement willfully violates
section 6106.
Count Seven (c)
Third, this count alleges that Respondent
misrepresented to the Ninth Circuit that, in the
Hubbard
matter,
OCTC
dismissed
charges
immediately after Brownfield testified because his
testimony was so unbelievable. Upon the court's
review of the record, however, it is evident that OCTC
dismissed its charges against Mehton after it recalled
Mehton to testify. Brownfield had testified two days
earlier, and there were six witnesses who testified
after Brownfield on that day. At trial, Respondent
admitted that OCTC never stated it was dismissing
because of Brownfield's testimony. Accordingly, it was

67a
misleading for Respondent to state in the petition for
rehearing:
“Brownfield's
testimony
was
so
unbelievable that, after he finished, the prosecutor
dismissed all the charges based on this outlandish
accusations of discovery abuse and manufacturing
evidence!” Respondent's specious statement is a
further willful violation of section 6106.
Count Seven (d)
Fourth, Count Seven alleges that Respondent
misrepresented to the Ninth Circuit that the
monetary sanctions in Vogel were solely for discovery
violations, when he knew that these sanctions were
also based on Hubbard's misrepresentations in the
MSJ. Respondent argues that he attached the
Hubbard State Bar Court decision to the petition for
rehearing. Moreover, he asserts this was merely an
opinion and not a statement of fact. However, the
court has reviewed the record and concludes that
Respondent did intend to convey that the monetary
sanctions in Vogel were imposed solely for discovery
violations. As stated previously, the hearing judge
found Hubbard culpable of committing acts involving
moral turpitude for filing the MSJ, which included the
false discovery information. Further, the district
court's order specifies that the sanctions were imposed
for bad faith litigation tactics, specifically including
misrepresentations, not simply for discovery
violations. This also constitutes a willful violation of
section 6106.

68a
Count Seven (e)
Finally, this count alleges that Respondent falsely
suggested to the Ninth Circuit in the Vogel petition for
rehearing that Hubbard “has practiced law in
California for more than thirty-two years without any
record of discipline.” 5 Again, Respondent used the
present tense, “has” practiced law, which spuriously
suggests that the lack of discipline is current.
Respondent argues that, immediately after this quote,
he cited to a docket entry that refers to the Hearing
Department decision in which Hubbard was found to
have practiced for 32 years before discipline was
imposed. Respondent would expect a court to view the
docket reference. This argument is not convincing.
Upon examination of the petition, the court finds that
Respondent citation is a mere cursory docket and page
number. Without an explanation, this leaves the
reader with the impression that Hubbard has no
record of discipline. Here, again, Respondent willfully
violated section 6106.
At the point Respondent drafted the petition,
Hubbard had been practicing for 40 years. Notably the
number of years Respondent claimed Hubbard had
been practicing without prior misconduct (32 years)
was inconsistent with the number he claimed in the
petition for writ filed with the Supreme Court three

5

Respondent claims that he took this statement from the
Hearing Department decision. However, the court actually
stated: “[Hubbard] had practiced law in California for more
than 32 years prior to his earliest misconduct set forth
above.”

69a
months later (40 years). The inconsistency
demonstrates Respondent's intentional deception.
In view of the foregoing, the court concludes that
Respondent is culpable of intentionally and repeatedly
engaging in acts involving moral turpitude through
his several misleading statements in the Vogel
petition for rehearing in willful violation of section
6106.
Counts Eight and Nine - Seeking to Mislead a
Court (§6068(d)) and Failing to Maintain
Respect Due to Courts (§ 6068(b))
As with Counts Two, Three, Five, and Six, the
court determines that the charges set forth in Counts
Eight and Nine are duplicative of those set forth in
Count Seven, and they are dismissed with prejudice.
(Bates v. State Bar, supra, 51 Cal.3d at pp. 1059-1060;
In the Matter of Romano, supra, 5 Cal. State Bar Ct.
Rptr. at p. 397.)
Count Ten - Failing to Maintain Respect Due to
Courts and Judicial Officers by Attacking
Integrity, Fairness, and Character of U.S.
District Judge in Statements to Ninth Circuit in
Petition/or Rehearing (§ 6068(b))
This count charges that, in the Vogel petition for
rehearing, Respondent attacked the integrity,
fairness, and character of U.S. District Judge Philip S.
Gutierrez by falsely claiming that the judge made
rulings and findings that he knew were incorrect and
contrary to the evidence. The NDC specifically charges
that Respondent made this attack by stating: “This
isn't a case where Judge Gutierrez did not know we

70a
were innocent of the charges . . . he did. The record
shows that he knew that our positions were firmly
rooted in binding Ninth Circuit precedent; knew that
we had never manufactured constitutional standing in
an ADA lawsuit (ever); knew that Brownfield
[opposing counsel] had misrepresented the holdings of
ln-N-Out Burgers, knew that Vogel had visited
Tulaphorn's restaurant, which is located next to his
brother's house, before the filing of the lawsuit and
had first-hand knowledge of the facility; knew that
Vogel’s confusion regarding the actual date of that
visit was traced directly to a clerical error by his
lawyers (who not only took full responsibility for their
mistake, but worked diligently to correct the record
once the mistake was discovered); and knew that,
given an opportunity, we could have proven all these
facts at an evidentiary hearing. It did not matter! The
district judge was determined to find that appellants
had a history of mendacity, a pattern of deception, and
willfully suborned perjury regardless of what the
evidence showed; and that is precisely what he did.”
(Italics in original.)
As Respondent stated at trial, the only way the
judge “knew” these assertions is because they were
representations made by Respondent. Thus, these
statements are specious because they purport to set
forth the judge’s knowledge, when instead they are, as
Respondent stated at trial, merely his “personal
knowledge.” While these statements are misleading,
the court does not find that they are directly
disrespectful of the district court judge. As
Respondent was only charged in this count with
failure to maintain respect due to courts and judicial
officers, the court does not find that OCTC sustained

71a
its burden to prove culpability.
Aggravation
OCTC must establish aggravating circumstances
by clear and convincing evidence . (Std. 1.5.) 6
Multiple Acts of Misconduct (Std. 1.5(b))
The court has found Respondent to be culpable of
three counts of intentionally engaging in acts of moral
turpitude by making eight misleading statements to
different courts. This constitutes significant
aggravation. (Cf. In the Matter of Song (Review Dept.
2013) 5 Cal. State Bar Ct. Rptr. 273, 279 [65 improper
client trust account withdrawals considered as
multiple acts of misconduct notwithstanding that
attorney was found culpable of only two charged
violations].)
Uncharged Violations (Std. 1.5(h))
As noted above, although there was insufficient
evidence that Respondent attacked the integrity,
fairness, and character of the district judge as alleged
in Count Ten, Respondent's statements were patently
misleading. He repeatedly stated in the Vogel petition
for rehearing to the Ninth Circuit that the district
court made certain rulings, notwithstanding that it
“knew” its rulings were contrary to the law and the
evidence. As Respondent admits at trial, the district
6

All references to standards (Std.) are to the Rules of
Procedure of the State Bar, title IV, Standards for Attorney
Sanctions for Professional Misconduct.

72a
court made rulings solely contrary to Respondent's
opinions. Due to this additional, intentional
misleading statement made to the Ninth Circuit, the
court concludes that Respondent is culpable of an
additional uncharged act involving moral turpitude in
willful violation of section 6106. (In the Matter of
Maloney and Virsik (Review Dept. 2005) 4 Cal. State
Bar Ct. Rptr. 774, 791 [where record contains clear
and convincing evidence of uncharged but proven
misconduct, court may consider it for purposes of
aggravation].)
Significant Harm to the Administration of
Justice (Std. 1.50))
Respondent's repeated misrepresentations to
multiple courts “undermine the ability of a tribunal to
rely on an attorney's word” and therefore constitute a
factor in aggravation. (In the Matter of Moriarty
(Review Dept. 2017) 5 Cal. State Bar Ct. Rptr. 511,
526.) “Offenses concerning the administration of
justice have been considered as very serious by the
Supreme Court.” (In the Matter of Wyshak (Review
Dept. 1999) 4 Cal . State Bar Ct . Rptr. 70, citing
Sands v. State Bar (1989) 49 Cal.3d 9 19, 930.)
Because
Respondent
here
repeatedly
made
misrepresentations to multiple courts, the court gives
the harm to the administration of justice significant
weight.
Lack of Remorse/Indifference to Rectification of
or Atonement for the Consequences of
Misconduct (Std. 1.5(k))

73a
Respondent demonstrates no remorse for his
conduct. As shown from his stipulation and his trial
testimony, he stands by every misleading statement
that he is accused of making in the NDC. He argues
that his statements to the Supreme Court and to the
Ninth Circuit are “absolutely” “honest and accurate”
and that “[t]here were no omissions.” The court finds
this lack of insight to be troubling and to demonstrate
a greater likelihood that the misconduct will repeat in
the future. The court gives great weight to this
aggravating factor . (Cf. In the Matter of Song, supra,
5 Cal. State Bar Ct. Rptr. at p. 279 [ significant weight
given to lack of remorse and lack of insight despite
occasional utterances at trial of remorse for actions
because attorney testified throughout trial that he did
not commit misconduct and that any misconduct was
not willful or volitional].)
Lack of Candor (Std. 1.5(1))
Throughout his testimony and in the documentary
evidence presented at trial, the court has found
Respondent to be untruthful. Respondent equivocates
when he testifies and equivocates when he writes. As
discussed in Count Four, Respondent was dishonest in
his testimony at trial regarding whether the Ninth
Circuit would allow him to address the outcome of
State Bar proceedings against Hubbard at oral
argument. The court finds this lack of candor in
Respondent's trial testimony to be a strong factor in
aggravation. (Cf. In the Matter of Maloney and Virsik,
supra, 4 Cal. State Bar Ct. Rptr. at pp. 791-792 [where
testimony was evasive, inconsistent, and dishonest,
court gave respondents' lack of candor strong
mitigating weight].)

74a
Mitigation
Respondent bears the burden of proving mitigating
circumstances by clear and convincing evidence. (Std.
1.6.)
No Prior Discipline (Std. l. 6(a))
Standard 1.6(a) provides that mitigating credit is
afforded when an attorney has no prior disciplinary
record over many years of practice and his or her
present misconduct is not likely to recur. Although
Respondent had nearly 15 years of discipline-free
practice at the time of his misconduct, because his
wrongdoing was serious and highly likely to recur, the
court gives it no mitigating weight. (Cf. In the Matter
of Kinney (Review Dept. 2014) 5 Cal. State Bar Ct.
Rptr. 360, 368 [where attorney's misconduct was
serious, part of a pattern, and highly likely to recur,
31 years of discipline-free practice given no weight in
mitigation].)
Cooperation with State Bar (Std. 1.6(e))
Respondent entered into a comprehensive pretrial
stipulation of facts with the State Bar. This
stipulation, although it did not include any stipulation
as to culpability, merits moderate weight in
mitigation. (In the Matter of Lenard (Review Dept.
2013) 5 Cal. State Bar Ct. Rptr. 250, 260 [reduced
mitigating credit given where attorney stipulates to
facts and admission of documents but does not
stipulate to culpability].)

75a
Good Character Evidence (Std. 1.6(f))
Respondent presented brief testimony regarding
community service, which the court does not find
compelling. While Respondent has periodically
volunteered at his children's school for many years,
this work is performed to help his children and not the
community at large.
Respondent also mentioned that he has helped
with fire victims in Paradise, California. He has only
been doing this since November and he presented no
details regarding his efforts. The court gives
Respondent's community service evidence little
weight in mitigation.
Respondent also presented the character
testimony of nine live witnesses, five of them
attorneys. Four of the attorneys solely have a
professional relationship with Respondent. They
think highly of Respondent's ADA practice and his
reputation in this field. Two of them have co-counseled
with Respondent. Their testimony as to Respondent’s
character was brief and subdued. Given their narrow
dealings with Respondent and their limited
knowledge of his character, the court gives their
testimonies nominal weight.
The fifth attorney, Susan Hearn, attended law
school with Respondent and they are neighbors.
Hearn finds Respondent to be kind and honest. Hearn
has also loaned Respondent and his brother money.
The court gives her testimony moderate weight as she
sees Respondent regularly, though usually in passing,
and trusts him enough to loan him money. A friend
and an employee of a business that Respondent and

76a
his brother own also testified briefly. The court did not
find their testimony persuasive. 7 Sheri Abel and
Brenda Pickern are plaintiffs that Respondent has
represented in ADA cases. They have known
Respondent for many years and think highly of his
legal skills. They believe he has good moral character.
Both Abel and Pickern were evasive about how many
cases Respondent represented them in, although when
pressed, Pickern said it was likely more than 50 but
not more than 100. They were also evasive in how
much money they have received as plaintiffs in these
cases. On the whole, their testimonies were not
compelling.
In view of the foregoing, the court gives
Respondent minimal weight for good character
evidence. (Cf. In the Matter of Nassar (Review Dept.
2018) 5 Cal. State Bar Ct. Rptr. 564, 575 [good
character testimony from attorneys, judges, and
employees of district attorney's office, though
impressive, given reduced weight because not from a
wide range of references in the general community].)
Discussion
The purpose of State Bar disciplinary proceedings
is not to punish the attorney but to protect the public,
the courts, and the legal profession; to maintain the
highest possible professional standards for attorneys;
and to preserve public confidence in the legal

7

The employee did not reveal that he worked at a business
owned by Respondent until pressed at cross examination,
which undermines his credibility.

77a
profession. (Std. 1.1; Chadwick v. State Bar (1989) 49
Cal.3d 103, 111.)
In determining the appropriate level of discipline,
the court looks first to the standards for guidance.
(Drociak v. State Bar (1991) 52 Cal.3d 1095, 1090; In
the Matter of Koehler (Review Dept. 1991) 1 Cal. State
Bar Ct. Rptr. 615, 628.) The Supreme Court gives the
standards “great weight” and will reject a
recommendation consistent with the standards only
where the court entertains “grave doubts” as to its
propriety. (In re Silverton (2005) 36 Cal.4th 81, 91-92;
In re Naney (1990) 51 Cal.3d 186, 190.) Although the
standards are not mandatory, they may be deviated
from when there is a compelling, well-defined reason
to do so. (Bates v. State Bar, supra, 51 Cal.3d at p.
1061, fn. 2; Aronin v. State Bar (1990) 52 Cal.3d 276,
291.)
Standard 2.11 provides that “[d]isbarment or
actual suspension is the presumed sanction for an act
of moral turpitude, dishonesty, fraud, corruption,
intentional or grossly negligent misrepresentation, or
concealment of a material fact. The degree of sanction
depends on the magnitude of the misconduct; the
extent to which the misconduct harmed or misled the
victim, which may include the adjudicator; the impact
on the administration of justice, if any; and the extent
to which the misconduct related to the [attorney's]
practice of law.” In addition, standard 1. 7(b) states,
“If aggravating circumstances are found, they should
be considered alone and in balance with any
mitigating circumstances, and if the net effect
demonstrates that a greater sanction is needed to
fulfill the primary purposes of discipline, it is

78a
appropriate to impose or recommend a greater
sanction than what is otherwise specified in a given
standard. On balance, a greater sanction is
appropriate in cases where there is serious harm to
the client, the public, the legal system, or the
profession and where the record demonstrates that
the [attorney] is unwilling or unable to conform to
ethical responsibilities.”
OCTC relies on In the Matter of Chesnut (Review
Dept. 2000) 4 Cal. State Bar Ct. Rptr. 166 in arguing
that Respondent should be actually suspended for at
least one year. There, the attorney was found culpable
of misrepresenting to two courts that he had served an
opposing party. In aggravation, he had a prior record
of discipline, and his testimony in the State Bar Court
lacked candor. In mitigation, he presented evidence of
good character and pro bono activities. The court
recommended that Chesnut be placed on a two-year
stayed suspension and a three-year probation on
condition, among other things, that he be actually
suspended for six months.
Here, Respondent was found culpable of a third
charge of making a misrepresentation to a court, plus
another uncharged misrepresentation to a court.
Although Respondent does not have a prior record of
discipline, he has more aggravating evidence overall,
making Respondent's case worthy of a higher level of
discipline than recommended in Chesnut.
In In the Matter of Dahlz (Review Dept. 2001) 4
Cal. State Bar Ct. Rptr. 269, the respondent was found
culpable, in one client matter, of failing to perform and
communicate,
improperly
withdrawing
from

79a
representation, and committing an act of moral
turpitude by misrepresenting to an insurance adjuster
that his client no longer wanted to pursue her claim.
In aggravation, the court found multiple acts of
misconduct, one prior instance of discipline, client
harm, and lack of candor toward the court and the
State Bar investigator. The lack of candor included
presenting a false telephone log entry prepared for
purposes of trial; presenting to the State Bar
investigator a falsified stipulation purporting to
resolve
his
client's
underlying
case;
and
misrepresenting to the State Bar investigator that he
appeared before a judge at the time his client's claim
was settled. In mitigation, the court afforded slight
weight to pro bono services rendered because his
involvement was not great and was remote in time.
Discipline consisted of stayed suspension for four
years and until he complied with standard 1.4(c)(ii)
and four years of probation on conditions, including
one year of actual suspension.
In In the Matter of Hertz (Review Dept. 1991) 1 Cal.
State Bar Ct. Rptr. 456, the court recommended a twoyear actual suspension in a case where the attorney
was found culpable of trust account violations and
making misrepresentations to courts, opposing
counsel, and the opposing party. Hertz presented good
character evidence and stipulated to misconduct prior
to trial, but he was practicing for only four years prior
to his misconduct. In aggravation, Hertz harmed the
administration of justice, opposing counsel, and her
client, and continued to conceal the truth to a State
Bar investigator.

80a
Here, Respondent has been found culpable of a
narrower range of misconduct than in Dahlz and
Hertz. Nevertheless, the court concludes that nothing
less than strong discipline will send the message to
Respondent that an attorney's duty of candor is of
utmost importance. (Rodgers v. State Bar (1989) 48
Cal.3d 300, 315 [ attempt to mislead probate court was
reprehensible].) Respondent's lack of insight into his
misconduct, demonstrated by his absence of remorse
and candor at trial, indicates to the court that there is
a likelihood that the misconduct may recur. Under
these circumstances, the court concludes that a oneyear actual suspension will serve the goals of attorney
disciplinary proceedings in this case.
Further, the court recommends that Respondent
remain actually suspended until he provides proof of
his rehabilitation, fitness to practice, and present
learning and ability in the general law. Respondent's
numerous misrepresentations to several courts are
alarming, particularly as he was dishonest to the
United States Supreme Court and the United States
Court of Appeals for the Ninth Circuit - two of the most
important federal courts. As he was well aware of his
father's disciplinary proceedings, in which he was an
active participant, Respondent was on notice about
the importance of veracity for an attorney in dealing
with a court. That he has engaged in repeated
mendacity, without repentance, only underscores that
he should not be allowed to return to the practice of
law until he proves his competency. While the court
recognizes that this requirement is normally imposed
with a two-year actual suspension (std. l.2(c)(l)), it is
important in this case that Respondent show that he
has changed his ways. Such a requirement will best

81a
serve the goals of attorney disciplinary proceedings in
this case. (Cf. In the Matter of Broderick (Review Dept.
1994) 3 Cal. State Bar Ct. Rptr. 138, 157-158 [court
imposed one year actual suspension and until attorney
made showing required under former version of
standard 1.2( c)( 1) to ensure attorney could not return
to practice of law until he proved he could practice
competently].)
Recommendations
Discipline - Actual Suspension “And Until”
Rehabilitation
It is recommended that SCOTTLYNN J.
HUBBARD IV, State Bar Number 212970, be
suspended from the practice of law for two years, that
execution of that suspension be stayed, and that
Respondent be placed on probation for two years with
the following conditions.
Conditions of Probation
1. Actual Suspension
Respondent must be suspended from the practice
of law for a minimum of the first year of his probation
and until Respondent provides proof to the State Bar
Court of his rehabilitation, fitness to practice, and
present learning and ability in the general law. (Rules
Proc. of State Bar, tit. IV, Stds. for Atty. Sanctions for
Prof. Misconduct, std. l.2(c)(l).)

82a
2. Review Rules of Professional Conduct
Within 30 days after the effective date of the
Supreme Court order imposing discipline in this
matter, Respondent must (1) read the California Rules
of Professional Conduct (Rules of Professional
Conduct) and Business and Professions Code sections
6067, 6068, and 6103 through 6126, and (2) provide a
declaration, under penalty of perjury, attesting to
Respondent's compliance with this requirement, to the
State Bar's Office of Probation in Los Angeles (Office
of Probation) with Respondent's first quarterly report.
3. Comply with State Bar Act, Rules of
Professional
Conduct,
and
Probation
Conditions
Respondent must comply with the provisions of the
State Bar Act, the Rules of Professional Conduct, and
all conditions of Respondent's probation.
4. Maintain Valid Official State Bar Record
Address
and
Other
Required
Contact
Information
Within 30 days after the effective date of the
Supreme Court order imposing discipline in this
matter, Respondent must make certain that the State
Bar Attorney Regulation and Consumer Resources
Office (ARCR) has Respondent’s current office
address, email address, and telephone number. If
Respondent does not maintain an office, he or she
must provide the mailing address, email address, and
telephone number to be used for State Bar purposes.
Respondent must report, in writing, any change in the
above information to ARCR, within ten days after such

83a
change, in the manner required by that office.
5. Meet
Probation

and

Cooperate

with

Office

of

Within 15 days after the effective date of the
Supreme Court order imposing discipline in this
matter, Respondent must schedule a meeting with
Respondent's assigned probation court specialist to
discuss the terms and conditions of Respondent's
discipline and, within 30 days after the effective date
of the court's order, must participate in such meeting.
Unless otherwise instructed by the Office of Probation,
Respondent may meet with the probation court
specialist in person or by telephone. During the
probation period, Respondent must promptly meet
with representatives of the Office of Probation as
requested by it and, subject to the assertion of
applicable privileges, must fully, promptly, and
truthfully answer any inquiries by it and provide to it
any other information requested by it.
6.
State
Bar
Court
Retains
Jurisdiction/Appear Before and Cooperate with
State Bar Court
During Respondent's probation period, the State
Bar Court retains jurisdiction over Respondent to
address issues concerning compliance with probation
conditions. During this period, Respondent must
appear before the State Bar Court as required by the
court or by the Office of Probation after written notice
mailed to Respondent's official State Bar record
address, as provided above. Subject to the assertion of
applicable privileges, Respondent must fully,
promptly, and truthfully answer any inquiries by the

84a
court and must provide any other information the
court requests.
7. Quarterly and Final Reports
a. Deadlines for Reports. Respondent must
submit written quarterly reports to the Office of
Probation no later than each January 10 (covering
October 1 through December 31 of the prior year),
April 10 (covering January 1 through March 31), July
10 (covering April 1 through June 30), and October 10
(covering July 1 through September 30) within the
period of probation. If the first report would cover less
than 30 days, that report must be submitted on the
next quarter date and cover the extended deadline. In
addition to all quarterly reports, Respondent must
submit a final report no earlier than ten days before
the last day of the probation period and no later than
the last day of the probation period.
b. Contents of Reports. Respondent must
answer, under penalty of perjury, all inquiries
contained in the quarterly report form provided by the
Office of Probation, including stating whether
Respondent has complied with the State Bar Act and
the Rules of Professional Conduct during the
applicable quarter or period. All reports must be: (1)
submitted on the form provided by the Office of
Probation; (2) signed and dated after the completion of
the period for which the report is being submitted
(except for the final report); (3) filled out completely
and signed under penalty of perjury; and (4) submitted
to the Office of Probation on or before each report's due
date.

85a
c. Submission of Reports. All reports must be
submitted by: (1) fax or email to the Office of
Probation; (2) personal delivery to the Office of
Probation; (3) certified mail, return receipt requested,
to the Office of Probation (postmarked on or before the
due date); or (4) other tracked-service provider, such
as Federal Express or United Parcel Service, etc.
(physically delivered to such provider on or before the
due date).
d. Proof of Compliance. Respondent is directed
to maintain proof of Respondent's compliance with the
above requirements for each such report for a
minimum of one year after either the period of
probation or the period of Respondent's actual
suspension has ended, whichever is longer.
Respondent is required to present such proof upon
request by the State Bar, the Office of Probation, or
the State Bar Court.
8. State Bar Ethics School
Within one year after the effective date of the
Supreme Court order imposing discipline in this
matter, Respondent must submit to the Office of
Probation satisfactory evidence of completion of the
State Bar Ethics School and passage of the test given
at the end of that session. This requirement is
separate from any Minimum Continuing Legal
Education (MCLE) requirement, and Respondent will
not receive MCLE credit for attending this session. If
Respondent provides satisfactory evidence of
completion of the Ethics School after the date of this
decision but before the effective date of the Supreme
Court’s order in this matter, Respondent will

86a
nonetheless receive credit for such evidence toward
his duty to comply with this condition.
9. Proof of Compliance with Rule 9.20
Obligations
Respondent is directed to maintain, for a minimum
of one year after commencement of probation, proof of
compliance with the Supreme Court's order that
Respondent comply with the requirements of
California Rules of Court, rule 9.20, subdivisions (a)
and (c). Such proof must include: the names and
addresses of all individuals and entities to whom
Respondent sent notification pursuant to rule 9.20; a
copy of each notification letter sent to each recipient;
the original receipt or postal authority tracking
document for each notification sent; the originals of all
returned receipts and notifications of non-delivery;
and a copy of the completed compliance affidavit filed
by Respondent with the State Bar Court. Respondent
is required to present such proof upon request by the
State Bar, the Office of Probation, or the State Bar
Court.
10. Commencement of Probation/Compliance
with Probation Conditions
The period of probation will commence on the
effective date of the Supreme Court order imposing
discipline in this matter. At the expiration of the
probation period, if Respondent has complied with all
conditions of probation, the period of stayed
suspension will be satisfied and that suspension will
be terminated.

87a
Multistate Professional Responsibility
Examination Within One Year
It is recommended that Respondent be ordered to
take and pass the Multistate Professional
Responsibility Examination administered by the
National Conference of Bar Examiners within one
year after the effective date of the Supreme Court
order imposing discipline in this matter and to provide
satisfactory proof of such passage to the State Bar's
Office of Probation within the same period. Failure to
do so may result in suspension. (Cal. Rules of Court,
rule 9.10(b).) If Respondent provides satisfactory
evidence of the taking and passage of the above
examination after the date of this decision, but before
the effective date of the Supreme Court's order in this
matter, Respondent will nonetheless receive credit for
such evidence toward his duty to comply with this
requirement.
California Rules of Court, Rule 9.20
It is further recommended that Respondent be
ordered to comply with the requirements of California
Rules of Court, rule 9 .20, and to perform the acts
specified in subdivisions (a) and (c) of that rule within
30 and 40 days, respectively, after the effective date of
the Supreme Court order imposing discipline in this
matter. 8 Failure to do so may result in disbarment or

8

For purposes of compliance with rule 9.20(a), the operative
date for identification of “clients being represented in
pending matters” and others to be notified is the filing date
of the Supreme Court order, not any later “effective” date of

88a
suspension.
Costs
It is further recommended that costs be awarded to
the State Bar in accordance with Business and
Professions Code section 6086.10, and are enforceable
both as provided in Business and Professions Code
section 6140.7 and as a money judgment. Unless the
time for payment of discipline costs is extended
pursuant to section 6086.10(c), costs assessed against
a lawyer who is actually suspended or disbarred must
be paid as a condition of reinstatement or return to
active status.
Dated: June 27, 2019
MANJARI CHAWLA
Judge of the State Bar Court

the order. (Athearn v. State Bar (1982) 32 Cal.3d 38, 45.)
Further, Respondent is required to file a rule 9.20(c), affidavit
even if Respondent has no clients to notify on the date the
Supreme Court filed its order in this proceeding. (Powers v.
State Bar (1988) 44 Cal.3d 337, 341.) In addition to being
punished as a crime or contempt, an attorney's failure to
comply with rule 9.20 is, inter alia, cause for disbarment,
suspension, revocation of any pending disciplinary probation,
and denial of an application for reinstatement after
disbarment. (Cal. Rules of Court, rule 9.20(d).)

89a
__________
APPENDIX E
__________
CALIFORNIA SUPREME COURT
No. S263210

IN THE MATTER OF
SCOTTLYNN J. HUBBARD IV,
ON DISCIPLINE MEMBER NO. 212970

August 14, 2020
PETITION FOR REVIEW
Alex Kozinski, SBN 66473
719 Yarmouth Rd, Ste 101
Pls Vrds Est, California 90274-2671
Telephone: (310) 541-5885
alex@kozinski.com
Russell Handy, SBN 195058
POTTER HANDY
8033 Linda Vista Road, Suite 200
San Diego, California 92111
Telephone: (858) 375-7385
russ@potterhandy.com

90a
TABLE OF CONTENTS
PRELIMINARY STATEMENT .................................. 7
ISSUES PRESENTED ............................................. 10
GROUNDS FOR REVIEW ....................................... 11
FACTUAL AND PROCEDURAL STATEMENT ..... 11
REASONS REVIEW IS APPROPRIATE ................. 21
I. This Court’s Intervention Is Necessary To
Settle Important Questions of Law. ......................... 21
a. Review Department opinions conflict with
each other and this Court’s teachings on the
propriety of disciplinary charge stacking. .......... 21
b. Review Department opinions conflict with
one another and this Court on whether there
is a requirement that any misrepresentation
be “material.” ....................................................... 24
c. United States Supreme Court jurisprudence
requires a showing of actual harm before
imposing discipline for speech-based charges
initiated by persons not the subject or
recipient of that speech. ....................................... 30
II. This Court’s Intervention Is Necessary To
Prevent the State Bar Court Acting Without or in
Excess of Its Jurisdiction by Routinely Refusing
To Conduct the Independent Review Mandated by
California Rule of Court 9.12. ................................... 34

91a
III. This Court’s Intervention Is Necessary To
Prevent the State Bar Court Routinely Depriving
Attorneys of a Fair Hearing by Treating Any
Contest of the Charges as an Aggravating Factor ... 36
IV. This Court’s Intervention Is Necessary
Because the Weight of the Evidence Does Not
Clearly and Convincingly Show Misconduct. ........... 37
V. This Court’s Intervention Is Necessary
Because the Harsh Recommended Discipline Is
Not Appropriate in Light of Significant
Mitigation, Little Aggravation, and an Obvious
Alternative. ................................................................ 41
CONCLUSION ......................................................... 44

92a
TABLE OF AUTHORITIES
Cases
Amgen Inc. v. Conn. Retirement Plans & Trust
Funds (2013) 568 U.S. 455................................... 27
Bates v. State Bar
(1990) 51 Cal.3d 1056 .............................. 10, 22, 23
Bro v. Glaser
(1994) 22 Cal.App.4th 1398 ................................. 29
Burlington Northern & Santa Fe Ry. Co. v. White
(2006) 548 U.S. 53 ................................................ 27
Conroy v. State Bar
(1991) 53 Cal.3d 495 ...................................... 22, 25
Fidelity National Home Warranty Company Cases
(2020), 46 Cal.App.5th 812 .................................. 35
Heavey v. State Bar
(1976) 17 Cal.3d 553 ................................ 10, 22, 23
In re Attorney Discipline System
(1998) 19 Cal.4th 582 ............................................. 9
In re Brown
(1995) 12 Cal.4th 205 ........................................... 42
In re George T.
(2004) 33 Cal.4th 620 ........................................... 35
In re Grant
(2014) 58 Cal.4th 269 ............................................. 8

93a
In re Houghton
(1885) 67 Cal. 511................................................. 24
In re Lesansky
(2001) 25 Cal.4th 11 ............................................... 8
In re Paguirigan
(2001) 25 Cal.4th 1 ................................................. 8
In re Rose
(2000) 22 Cal.4th 430 ............................................. 9
In re Silverton
(2005) 36 Cal.4th 81 ............................................... 8
In the Matter of Anderson
(Review Dept. 1997) 4 Cal. State Bar Ct. Rptr.
775 ........................................................................ 39
In the Matter of Chesnut
(Review Dept. 2000) 4 Cal. State Bar. Ct. Rptr.
166 .................................................................. 26, 28
In the Matter of Conroy
(Review Dept. 1990) 1 Cal. State Bar Ct. Rptr.
86 .......................................................................... 24
In the Matter of Farrell
(Review Dept. 1991) 1 Cal. State Bar Ct. Rptr.
490 .................................................................. 23, 25
In the Matter of Hansen
(Review Dept. 2016) 5 Cal. State Bar Ct. Rptr.
464 ........................................................................ 31

94a
In the Matter of Harney
(Review Dept. 1995) 3 Cal. State Bar Ct. Rptr.
266 ........................................................................ 21
In the Matter of Hertz
(Review Dept. 1991) 1 Cal. State Bar Ct. Rptr.
456 ........................................................................ 23
In the Matter of Hubbard
(Review Dept. 2016, Nos. 11-0-14081+) 2016
WL 4184002 .................................................... 14, 18
In the Matter of Katz
(Review Dept. 1991) 1 Cal. State Bar Ct. Rptr.
502 ........................................................................ 36
In the Matter of Lapin
(1993) 2 Cal. State Bar Ct. Rptr. 279 .................. 31
In the Matter of Maloney
(Review Dept. 2005) 4 Cal. State Bar Ct. Rptr.
774 .................................................................. 21, 22
In the Matter of Moriarty
(Review Dept. 2017) 5 Cal. State Bar Ct. Rptr.
511 ........................................................................ 23
In the Matter of Pasyanos
(2005) 4 Cal. State Bar Ct. Rptr. 746 .................. 27
In the Matter of Rodriguez
(Review Dept. 1993) 2 Cal. State Bar Ct. Rptr.
480 ........................................................................ 23

95a
In the Matter of Romano
(Review Dept. 2015) 5 Cal. State Bar Ct. Rptr.
391 ........................................................................ 22
In the Matter of Torres
(Review Dept. 2000) 4 Cal. State Bar Ct. Rptr.
138 ........................................................................ 22
Lee v. State Bar
(1970) 2 Cal.3d 927 .............................................. 31
Lynch v. Cook
(1983) 148 Cal.App.3d 1072 ................................. 27
Oats v. Oats
(1983) 148 Cal. App. 3d 416 ................................. 35
Omnicare, Inc. v. Laborers Dist. Council Const.
Industry Pension Fund (2015) 575 U.S. 175 ....... 27
Peck v. State Bar
(1932) 217 Cal. 47................................................. 30
People ex rel. Gallegos v. Pacific Lumber Co.
(2008) 158 Cal.App.4th 950 ................................. 36
People v. Hagen
(1998) 19 Cal.4th 652 ........................................... 27
Pickering v. State Bar
(1944) 24 Cal.2d 141 ............................................ 30
Reilly v. Pinkus
(1949) 338 U.S. 269 .............................................. 28
Siegel v. Committee of Bar Examiners
(1973) 10 Cal.3d 156 ............................................ 27

96a
Sodikoff v. State Bar
(1975) 14 Cal.3d 422 ............................................ 30
Standing Committee on Discipline v. Yagman
(9th Cir. 1995) 55 F.3d 1430 .................... 35, 39, 40
TSC Indus., Inc. v. Northway, Inc.
(1976) 426 U.S. 438 .............................................. 27
United States v. Alvarez
(2012), 567 U.S. 709 ....................................... 30, 32
Williams v. Lowenthal
(1932) 124 Cal.App. 179 ....................................... 28
Constitutions
U.S. Const., 1st Amend. ............................................ 30
Cal. Const., art. I ....................................................... 30
Statutes
8 U.S.C. § 1182(a)(2)(A)(i) ......................................... 24
Bus. & Prof. Code § 6068 ........................................... 21
Bus. & Prof. Code § 6068(b) ...................................... 18
Bus. & Prof. Code § 6068(c) ....................................... 29
Bus. & Prof. Code § 6068(d) ................................ 18, 21
Bus. & Prof. Code § 6078 ........................................... 35
Bus. & Prof. Code § 6079.4 ........................................ 37

97a
Bus. & Prof. Code § 6106 ..................................... 18, 21
Rules
California Rule of Court 8.204(c)(1) .......................... 46
California Rule of Court 9.12 .............................. 10, 34
California Rule of Court 9.13(a) ................................ 11
California Rule of Court 9.16(a)(1) ............................. 7
California Rule of Court 9.16(a)(2) ............................. 8
California Rule of Prof. Conduct 3.10(a)................... 31
State Bar of California Rule of Procedure 5.155(A) . 34
Other Authorities
California Style Manual (4th ed. 2000) § 6.25 ........... 8
Wall, The A.D.A. at 30: Beyond the Law’s
Promise, N.Y. Times (Jul. 26, 2020)
<https://www.nytimes.com/
interactive/2020/us/disability-ADA-30anniversary.html>.) ................................................... 43

98a
PRELIMINARY STATEMENT
The State Bar Court recommends Petitioner be
disciplined for statements he made to two federal
courts while defending his father and law partner
against the vendetta of an opposing counsel.
Petitioner’s material statements of fact were true in
context, and not a single one of the supposedly misled
or maligned judges complained. The State Bar—
spurred to act by that same vengeful opposing counsel,
now entering the second decade of this crusade—has
nevertheless chosen to take vicarious offense. It would
like this Court to shutter Petitioner’s civil rights
practice for at least a year, and perhaps indefinitely,
to the benefit of the crusader’s scofflaw clients.
This is an unprecedented disciplinary matter
resulting
in
an
unprecedented
sanctions
recommendation. On this, and this alone, Petitioner
and the Office of Chief Trial Counsel agree. (Motion
to Publish, p. 2 [alleged misconduct “significantly
different” and discipline “materially different” from
prior cases].)
Conflicting Review Department
opinions on important questions concerning the
appropriate test for materiality and the propriety of
charge stacking give more reason to grant review.
(Cal. Rules of Ct., rule 9.16, subd. (a)(1).) The chilling
effect the proposed discipline will have on civil rights
advocacy, a consequence described by amici below,
catapults those reasons from sufficient to necessary.
Particularly today.
Nor are they the only reasons to review this
extraordinary matter. By adopting a rule of partially
deferential review in direct contravention of the

99a
“independent review” standard commanded by this
Court’s rules, the State Bar Court’s Review
Department is routinely acting “without or in excess
of [its] jurisdiction.” (Id., rule 9.16, subd. (a)(2).) By
assigning “substantial [aggravating] weight” to
Petitioner’s insistence on his innocence, the State Bar
Court has deprived Petitioner of “a fair hearing.” (Id.,
rule 9.16, subd. (a)(3).) Neither can the “weight of the
evidence” support the charges, nor the “record as a
whole” support the sanction. (Id., rule 9.16, subd.
(a)(4)-(5).)
But there is, finally, one very practical
consideration counseling review. So far as Petitioner
can determine, this Court has granted review from a
recommendation of discipline by the State Bar Court
just four times since 2000—and two of those grants
were in 2001. 1 The constitutionality of the State Bar
Court has depended on the notion that it “is simply an
administrative arm of this court and exercises none of
our inherent authority over attorney discipline, [so]
‘the judicial power in disciplinary matters remains
with this court, and was not delegated to the State

1

Petitioner searched the titles of this Court’s opinions for “On
Discipline,” the phrasing called for in California Style
Manual (4th ed. 2000) § 6.25 for disciplinary matters before
this Court, which returned: In re Grant (2014) 58 Cal.4th
269; In re Silverton (2005) 36 Cal.4th 81; In re Lesansky
(2001) 25 Cal.4th 11; In re Paguirigan (2001) 25 Cal.4th 1.
Although the Court has issued a handful of opinions over the
same period on issues collateral to discipline and mentioning
the State Bar Court, such as ineffective assistance of counsel,
contempt, and attorneys’ fees, those did not require or involve
supervision of the State Bar Court’s Review Department.

100a
Bar.’” (In re Rose (2000) 22 Cal.4th 430, 442 [quoting
In re Attorney Discipline System (1998) 19 Cal.4th 582,
599-600].). That can no longer be said to be true if this
Court allows the State Bar Court to develop and
enforce its own law, a law diverging in many respects
from this Court’s own teachings, without granting
review—even merely to consider or ratify that law—
more than once or twice a decade.
Recent events have evinced the Legislature’s
dissatisfaction with the legal community, including
the courts, for behaving more like a trade association
than a public protection body in the regulation and
management of the profession. Repeated inaction in
the face of renegade Review Department decisions will
eventually be seen as guildishness. And that will
invite the Legislature and the federal courts to do
what this Court will be judged as refusing to do for
itself: rein in an entity badly in need of restraint.
Such intrusion by institutions with lesser subject
matter competence but the fair perception that no one
else is minding the store is in no one’s interest, least
of all that of the entity claiming “expressly reserved,
primary and inherent authority” in such matters.
(Ibid.)

101a
ISSUES PRESENTED
1. Is the State Bar Court free to disagree with this
Court’s disapproval of disciplinary charge stacking in
Bates v. State Bar (1990) 51 Cal.3d 1056, 1060, Heavey
v. State Bar (1976) 17 Cal.3d 553, 560?
2. For disciplinary purposes, is every statement in
every court pleading or hearing material?
3. Does the United States Supreme Court’s First
Amendment jurisprudence require actual harm in
speech-based disciplinary charges initiated by persons
not the subject or recipient of the speech?
4. May the State Bar Court apply a rule requiring
the Review Department to defer in part to Hearing
Department decisions, in contravention of the
standard of review provided in California Rule of
Court 9.12?
5. May the State Bar Court assign significant
aggravating weight to a licensee’s insistence on his
innocence?
6. Does the weight of the evidence clearly and
convincingly prove that Petitioner made material
misstatements when the records of the relevant
proceedings are considered as a whole?
7. Can the sanction of suspension ever be
appropriate where there is “substantial mitigati[on],”
little aggravation, and an obvious, far-less-restrictive
means for protecting the public?

102a
GROUNDS FOR REVIEW
Petitioner seeks review of a recommendation of
suspension under California Rule of Court 9.13(a).
Review within the State Bar Court was exhausted
upon issuance of the attached Modified Opinion by the
Review Department on June 3, 2020, which was
transmitted to this Court on June 17, 2020. Pursuant
to California Rule of Court 9.13(e)(1), Petitioner
alleges all five grounds for review under California
Rule of Court 9.16(a).
FACTUAL AND PROCEDURAL STATEMENT
The parties agreed to an extensive pre-hearing
stipulation that conveniently recites almost all
relevant matters in chronological order and presents
the various issues on a crisp, clean record.
(Stipulation as to Facts & Admission of Documents,
pp. 1-12.) Petitioner Scottlynn J Hubbard IV (Scott)
and his father Lynn Hubbard III (Lynn) were law
partners for many years in a practice focused on
protecting the rights of the disabled. (Id. at p. 2.)
Lynn’s mother Barbara (Scott’s grandmother) was a
plaintiff in an Americans with Disabilities Act case
brought by Lynn and termed throughout the
proceedings below “the Plaza Bonita matter.” (Ibid.)
Barbara settled with many of the Plaza Bonita
defendants but died before settling with two of them.
(Ibid.) Lynn instructed a non-attorney staff member
to sign the final two settlement agreements on
Barbara’s behalf and to fax them to opposing counsel
without disclosing that Barbara had died. (Id. at p. 3.)
Scott is not alleged to have approved, ratified, or even
been aware of these actions by Lynn before they

103a
occurred.
Lynn’s failure to reveal Barbara’s death was
subsequently found to be misconduct and, in addition
to causing federal bar discipline that became final
October 24, 2013, and being one of the grounds for
state bar discipline that became final December 29,
2016, the federal court awarded sanctions against
Lynn in the Plaza Bonita matter itself. (Id. at pp. 46.) Scott unwisely represented his father in appealing
that sanctions award to the Ninth Circuit. (Ibid.;
Modified Opinion, p. 3.) Lynn lost. (Ibid.)
There are good reasons surgeons don’t operate on
family members; it’s hard to maintain objectivity
when your own flesh and blood is in jeopardy. Driven
to clear his father’s name, Scott pressed on and
petitioned the United States Supreme Court for
certiorari. (Ibid.) It denied relief on October 3, 2016,
or more than two months before the omnibus state
disciplinary proceedings against Lynn became final.
(Ibid.) Out of the hundreds of pages of pleadings in
the Plaza Bonita matter, the Review Department
opinion at issue relies entirely on the following four
sentences from the June 14, 2016, certiorari petition
to support disciplining Scott:
Throughout [Lynn’s] forty-year career [he]
has never . . . never . . . been found to have
committed professional misconduct . . . ;
(“Plaza Bonita statement #1”)
and

104a
Everything that [Lynn] said in this matter
was 100% true, 100% of the time; and there is
absolutely no evidence that he fraudulently
concealed anything from anyone. [Citation
omitted.] More importantly . . . [Lynn] did not
come close to (much less cross) the line of
professional misconduct, unethical behavior,
bad faith, or even recklessness. [Citation
omitted.]
In fact, after eight years of
persecution no one—not [opposing counsel],
not the magistrate, not two district [court]
judges, not the State Bar of California, not
even the Ninth Circuit panel—has identified
what duty [Lynn] supposedly violated.
(“Plaza Bonita statement #2”)
(Modified Opinion, p. 5 [modifications in original];
Stipulation, p. 6.)
In another ADA case, termed “the Vogel matter,”
Lynn represented that the plaintiff had standing to
sue based on a particular sales receipt from the
defendant’s place of business. (Stipulation, p. 7.) That
was incorrect. (Ibid.) In fact, the receipt and
photographs purporting to be from the plaintiff’s visit
were from a visit made by Lynn and another person.
(Ibid.)
Opposing counsel filed for terminating
sanctions, which the district judge granted on
November 5, 2013. (Id. at p. 8.) Again, Scott is not
alleged to have played any role in this misconduct.
OCTC filed charges against Lynn for both the
Plaza Bonita and Vogel matters on May 15, 2014, and
July 11, 2014, respectively, and the matters were
eventually consolidated. (In the Matter of Hubbard

105a
(Review Dept. 2016, Nos. 11-0-14081+) 2016 WL
4184002, at *1; Stipulation, p. 5.) Those proceedings
culminated in a recommendation that Lynn be
suspended from practice for two years, with one-year
of actual suspension imposed, in addition to the
condition that he prove rehabilitation, fitness, and
present learning and ability before being eligible to
resume practice. (Stipulation at pp. 5-6.; Modified
Opinion, p. 6, fn. 9.) That discipline became final on
December 29, 2016. (Exh. 68.) Disciplinary charges
that had been brought against Lynn’s associate in the
Vogel matter were dismissed in the interest of justice.
(Stipulation, p. 10; Modified Opinion, pp. 12-13.)
In the meantime, Scott was again representing his
father, this time in an appeal of the Vogel order
granting attorneys’ fees to the defendants. OCTC has
initiated discipline against Scott in the second of the
two subject disciplinary matters for making the
following statements (“the Vogel colloquy”) on
February 4, 2016—more than ten months before the
state discipline against Lynn became final—during
oral argument before the Ninth Circuit:
Judge M. Smith: Has the State Bar taken any
action in connection with the attorneys in this
matter?
Scott: With respect to the attorney responsible for
the deposition . . . uh . . . the discovery-related
abuses, as I indicated in our reply brief . . .
Judge M. Smith: What happened?
Scott: While it happened, all of this . . .

106a
Judge M. Smith: No, I mean, what did the State
Bar do?
Scott: Oh, the State Bar dismissed in the interests
of justice, their words. Dismissed all the charges
against him.
Judge M. Smith: Any of the other attorneys?
Scott: That was the only attorney.
Judge M. Smith: The only one?
Scott: Yes.
(Stipulation, p. 11; Modified Opinion, pp. 8-9.) After
oral argument, the Ninth Circuit panel affirmed the
district court’s sanctions order.
On March 2, 2016, or more than nine months
before Lynn’s state discipline became final, Scott
petitioned for rehearing en banc of that affirmance.
(Ibid.) OCTC has charged Scott with misconduct
based on the following statements in that petition:
•

“The State Bar of California . . . prosecuted [Lynn]
and ([his associate]) for professional misconduct
and ethics violations.
The results of that
prosecution was [sic] . . . the prosecutor dismissed
all of the charges based on . . . accusations of
discovery abuse and manufacturing evidence.”
(Modified Opinion, p. 11.) (“Vogel statement #1”)

•

“[Lynn’s] success was so overwhelming that the
State Bar actually appealed the judge’s ruling.”
(Ibid.) (“Vogel statement #2”)

107a
•

“The Court must grant this Petition for Rehearing
En Banc, as even the State Bar [p]rosecutor
admitted that . . . the district court’s charges of
professional misconduct and ethics violations
would never have been brought if [Lynn and (his
associate)] had had a chance to respond.” (Id. at p.
12, fn. 17 [noting but excusing that OCTC failed to
include this quote in its notice of charges against
Scott].) (“Vogel statement #3”)

•

“[Brenden] Brownfield’s testimony was so
unbelievable that, after he finished, [OCTC]
dismissed all of the charges based on his
outlandish accusations of discovery abuse and
manufacturing evidence!”
(Id. at pp. 13-14.)
(“Vogel statement #4”)

•

An allegation with no accompanying quote in
either the Hearing Department or Review
Department opinions that the petition for
rehearing en banc sought to convince the Ninth
Circuit the terminating sanctions were purely for
discovery abuses (Id. at pp. 14-15.)
(“Vogel
statement #5”)

•

“[Lynn] has practiced law in California for more
than thirty-two years without any record of
discipline.” (Id. at p. 15.) (“Vogel statement #6”)

Finally, in connection with the same en banc
petition, OCTC has charged Scott with failing to
maintain the respect due to courts and judicial officers
based on the following passage:

108a
This isn’t a case where Judge Gutierrez did not
know we were innocent of the charges . . . he did.
The record shows that he knew that our positions
were firmly rooted in binding Ninth Circuit
precedent; knew that we had never manufactured
constitutional standing in an ADA lawsuit (ever); .
. . knew that Vogel had visited Tulaphorn’s
restaurant, which is located next to his brother’s
house, before the filing of the lawsuit and had firsthand knowledge of the facility, knew that Vogel’s
confusion regarding the actual date of that visit
was traced directly to a clerical error by his lawyers
(who not only took full responsibility for their
mistake, but worked diligently to correct the record
once the mistake was discovered); and knew that,
given an opportunity, we could have proven all
these facts at an evidentiary hearing. It did not
matter! The district judge was determined to find
that appellants had a history of mendacity, a
pattern of deception, and willfully suborned
perjury regardless of what the evidence showed;
and that is precisely what he did.
(“Judge
Gutierrez comments”)
(Modified Opinion, p. 16.)
This case thus concerns Scott’s speech-based
advocacy in two appeals from sanctions orders entered
against his father. None of the judges and justices
allegedly offended-against complained to the State
Bar. But one of the two relevant opposing counsels in
the Plaza Bonita matter filed a complaint, and OCTC
initiated its own proceedings on the Vogel matter. Out
of those two complaints, OCTC fashioned 10 charges
with numerous counts.

109a
For each statement listed above (excepting the last
concerning Judge Gutierrez) OCTC charged Scott with
a violation of Section 6106 of the Business and
Professions Code for moral turpitude; a violation of
Section 6068(d) of the same for seeking to mislead a
court or judge; and a violation of Section 6068(b) for
failing to maintain the respect due to courts and
judicial officers. (Id. at pp. 5, 8, 10.) The tenth charge
alleged only a violation of Section 6068(b) based on the
passage concerning Judge Gutierrez in the en banc
petition. (Id. at p. 16.)
Scott, who has never been the subject of
disciplinary proceedings in any of the three states and
several federal courts where he is admitted,
consistently maintained his innocence throughout the
lengthy proceedings below. (E.g., Respondent’s
Closing Brief, pp. 1-17.) He noted that prior to the
Plaza Bonita and Vogel matters, it was in fact true
that his father had enjoyed decades of blemish-free
practice. (In the Matter of Hubbard, supra, 2016 WL
4184002, at *10.) He observed that what his father
actually said (in contrast to what he was disciplined
for failing to say) in the Plaza Bonita matter was true.
He highlighted that he joined a motion in the Vogel
appeal for judicial notice of the State Bar’s non-final
disciplinary order against Lynn, which one might
think would negate any suggestion he was trying to
conceal Lynn’s discipline. (Exh. 36.) And so on.
The Hearing Department was persuaded at least
in part and dismissed some charges as duplicative and
the charge based on statements concerning Judge
Gutierrez as unsupported by the evidence. (Hearing
Dept. Opinion, pp. 11-13, 17-18.) Nine character

110a
witnesses, including five attorneys, testified to Scott’s
exceptional character. (Modified Opinion, p. 21.)
Nevertheless, the Hearing Department sided with
OCTC and gave exactly the bottom-line discipline it
asked for: a recommendation that Scott be suspended
for two years, with one year’s actual suspension, and
the condition to prove rehabilitation, fitness, and
present learning and ability before being allowed to
resume practice. (Hearing Dept. Opinion, pp. 26-30;
OCTC Pre-Trial Statement, p. 21.) The Hearing
Department gave “great weight” in aggravation to
Scott’s insistence on his innocence. (Hearing Dept.
Opinion, pp. 19-20.)
The parties cross-appealed to the Review
Department. Two amicus briefs, including one from
ADA defendants whom Scott has sued—pause to
consider this, companies Scott has sued—and another
from a colleague with nearly 50 years’ experience,
urged the Review Department to reverse. (Amicus of
Russell Handy, p. 2; Amicus of James Crawford, pp. 12.)
After conducting a deferential rather than
independent review (Modified Opinion, p. 2, fn. 3, p.
17, fn. 19), the Review Department did the opposite:
it (1) reinstated all charges dismissed as duplicative
(id. at pp. 7, 10, fns. 13-14); and (2) reversed the
Hearing Department’s dismissal of the charge based
on the passage concerning Judge Gutierrez (id. at pp.
16-17); but concluded that (3) Scott did not
misrepresent the nature of the terminating sanctions
in the Vogel matter because the petition for rehearing
disclosed that Lynn had been found to have
“participated in a pattern of falsification of evidence
that amounted to bad faith” (id. at pp. 14-15). The
Review Department then downgraded the severity of

111a
four of the five aggravating factors cited by the
Hearing Department and substantially increased the
weight of two of the four mitigating factors—and then
affirmed the recommended sanction anyhow. (Id. at
pp. 18-22.)
After correcting the erroneous inclusion of an
inapplicable probation condition by issuing the
Modified Opinion on June 3, 2020, the Review
Department transmitted its recommendation to this
Court on June 17, 2020. OCTC sought publication of
the Modified Opinion in a long letter motion originally
submitted June 19, 2020, which was denied July 17,
2020. This timely petition for review follows.
REASONS REVIEW IS APPROPRIATE
I. This Court’s Intervention Is Necessary to
Settle Important Questions of Law.
a. Review Department opinions conflict with
each other and this Court’s teachings on the
propriety of disciplinary charge stacking. 2
The moral turpitude (1, 4, and 7) and failure-torespect (3, 6, and 9) charges against Petitioner are
based on the exact same statements used to support
the seeking-to-mislead charges (2, 5, and 8).
California law is clear that one cannot seek to mislead
a court in violation of Section 6068(d) without
simultaneously committing an act of moral turpitude,

2

This ground for review pertains to the first nine of the ten
disciplinary charges but does not pertain to the tenth charge.

112a
in violation of Section 6106, and failing to maintain
the respect due a court, in violation of Section 6068.
(In the Matter of Maloney (Review Dept. 2005) 4 Cal.
State Bar Ct. Rptr. 774, 786 [“It is well established
that acts of moral turpitude include an attorney's false
or misleading statements to a court or tribunal”]; In
the Matter of Harney (Review Dept. 1995) 3 Cal. State
Bar Ct. Rptr. 266, 282 [violation of Section 6068(b)
when attorney “misled the court”].)
The moral
turpitude and failure-to-respect counts are therefore
entirely duplicative, or as the Court used to say
“redundant,” of the seeking-to-mislead charges.
This Court has repeatedly suggested that such
charge stacking is inappropriate. (Conroy v. State Bar
(1991) 53 Cal.3d 495, 502 [“[S]ince Conroy’s inaction
on his client’s matter also violated [another rule],
there was no need to make duplicative allegations of
misconduct”]; Bates v. State Bar (1990) 51 Cal.3d
1056, 1060 [“If, as in this case, misconduct violates a
specific Rule of Professional Conduct, there is no need
for the State Bar to allege the same misconduct as a
violation of [multiple provisions of the Business and
Professions Code]”]; Heavey v. State Bar (1976) 17
Cal.3d 553, 559-60 [alleged violation of Section 6068
attorney duties “redundant to” charge of violating
Rules of Professional Conduct based on same
statements to judge].) The Hearing Department
recognized as much and so dismissed six of the
charges. (Modified Opinion, p. 7 & fn. 11.) 3 As
3

It did, however, err by dismissing the seeking-to-mislead and
failure-to-respect charges and retaining the moral turpitude
charges. The seeking-to-mislead charge was, from the

113a
authority, it cited In the Matter of Romano (Review
Dept. 2015) 5 Cal. State Bar Ct. Rptr. 391, 397, which
dismissed a seeking-to-mislead charge as duplicative
of a moral turpitude charge “because the same
misconduct underlies both violations.” Romano, in
turn, cited In the Matter of Maloney (Review Dept.
2005) 4 Cal. State Bar Ct. Rptr. 774, 786-87, which
relied upon In the Matter of Torres (Review Dept.
2000) 4 Cal. State Bar Ct. Rptr. 138, 148, which
referenced this Court’s opinions in Bates, supra, 51
Cal.3d at 1060, and Heavy, supra, 17 Cal.3d at 559-60.
A separate set of Review Department opinions
conflicts with those cases and this Court’s position. In
addition to the subject opinion, there is In the Matter
of Moriarty (Review Dept. 2017) 5 Cal. State Bar Ct.
Rptr. 511, 520, which cited the following cases as
authority for allowing duplicative charges: In the
Matter of Rodriguez (Review Dept. 1993) 2 Cal. State
Bar Ct. Rptr. 480, 489; In the Matter of Farrell (Review
Dept. 1991) 1 Cal. State Bar Ct. Rptr. 490, 497; and In
the Matter of Hertz (Review Dept. 1991) 1 Cal. State
Bar Ct. Rptr. 456, 469-70. These utterly irreconcilable
lines of cases, which do not acknowledge, far less
attempt to distinguish, each other detract from the
orderly administration of discipline in this state.

perspective of remedying charge stacking, the sole correct
charge to retain.

114a
Although the Review Department purported to
give the duplicative charges no additional weight in
fashioning its sanction, one cannot take this seriously.
(Modified Opinion, pp. 8, 10 fn. 13.) The entire reason
OCTC engages in charge stacking, and the only reason
the Review Department might bother to revive
dismissed duplicative charges, is to press for or justify
imposing more serious discipline. If the prohibited
charges were entirely superfluous, if they carried no
additional weight, caused no additional stigma,
resulted in no additional collateral consequences,
neither OCTC nor the Review Department would
waste time and ink—particularly not when doing so
requires them to defy this Court’s teachings in Conroy,
Bates, and Heavy.
For a concrete example of the difference
duplicative charges can make, consider possible
collateral consequences. Under federal immigration
rules, “any alien . . . committing actions which
constitute the essential elements of a crime involving
moral turpitude . . . is inadmissible.” (8 U.S.C. § 1182,
subd. (a)(2)(A)(i).) It thus can matter a great deal
whether a licensee’s conduct is adjudged morally
turpitudinous in haec verba or whether some other
charge, one leaving more ambiguity, is used. And a
duplicative charge of “moral turpitude” is the one
OCTC seems most frequently to make, as in, for
example, Romano, Maloney, and Torres, supra.

115a
b. Review Department opinions conflict with
one another and this Court on whether there
is a requirement that any misrepresentation
be “material.”
One hundred and thirty-five years ago this Court
limited speech-based attorney disciplinary action to
statements deemed material, lest the minutiae of
every case become grist for the disciplinary mill. (In
re Houghton (1885) 67 Cal. 511, 517.) Thirty years
ago, the Review Department invited briefing on
whether this remained the law, asking “[w]hether a
misrepresentation must be ‘material’ in order to
support” discipline. (In the Matter of Conroy (Review
Dept. 1990) 1 Cal. State Bar Ct. Rptr. 86, 87, fn.4.) In
response, OCTC’s predecessor “concede[d] that the
misrepresentations must be material,” and the Review
Department went on to reject OCTC’s charges of
misrepresentation in part for the statements’
“questionable materiality.” (Id. at p. 97, fn.10.) This
Court expanded upon the eventual recommendation of
the Review Department that the licensee be
suspended for other misconduct, but it affirmed the
finding of no misrepresentation. (Conroy v. State Bar
(1991) 53 Cal.3d 495, 502, fns. 4-5.)
A Review Department opinion immediately
following Conroy applied a meaningful materiality
standard, ruling that a licensee’s lie—that he had
served a subpoena on a non-appearing witness he had
not in fact served—was “material both because it
affected the court’s scheduling of the daily calendar to
accommodate the witness and because it wrongfully
caused the witness . . . to be initially considered by the
court in disobedience of a subpoena which had not yet

116a
in fact been served upon him.” (In the Matter of
Farrell (Review Dept. 1991) 1 Cal. State Bar Ct. Rptr.
490, 497.) This objective standard sensibly put
arguments, opinions, and the flotsam and jetsam of
every argument and hearing outside the reach of the
petty, the vindictive, and the picayune personalities
that can crop up in legal practice.
But a few years later something went awry, and
more service-related shenanigans started the Review
Department on a path culminating in the challenged
opinion’s complete evisceration of any meaningful
materiality requirement. One of the parties to the
case underlying In the Matter of Chesnut (Review
Dept. 2000) 4 Cal. State Bar Ct. Rptr. 166, commenced
divorce proceedings in Texas while the other party
filed in California. Which proceeding had priority and
so which law would control appeared, for a time, to
depend upon who served whom first. (Id. at 170-74.)
The licensee, representing the wife, chose to lie and
told the judges in both Texas and California that he
had served the husband in California before the
husband sued in Texas. (Id. at 169-70.) But neither
court ultimately decided the issue of service because
there was no doubt the wife and children had moved
back to California, making it the appropriate forum for
custody and support issues regardless of who won the
service race. (Id. at 174.) The licensee argued that
since his lie had no “impact” on the proceedings, the
lie was not material.
The Review Department quite sensibly disagreed,
noting that the relevant misconduct is seeking to
mislead a court; success is not required. (Ibid.) The
licensee clearly sought to mislead on a potentially

117a
dispositive issue by telling an unvarnished lie about a
naked historical fact concerning the licensee’s own
conduct and in no way subject to dispute. The Review
Department didn’t use that logic, though. Instead, it
held: “[R]espondent’s statements to the two courts
that he had served [the husband] were in fact untrue
and he knew they were untrue. Thus, it is presumed
that the statements were made with an intent to
secure an advantage,” which “by its very nature, [is]
material to the person making the statement.” (Id. at
175 & fn. 11 [emphasis added].)
This approach eviscerates the differences between
falsity, intent, and materiality. What is worse, it
conflates the intent to mislead, which is the
“subjective aspect” of a lie for disciplinary purposes
(Siegel v. Committee of Bar Examiners (1973) 10
Cal.3d 156, 174), with the materiality of the
statement, which every area of the law defines
objectively. (E.g., People v. Hagen (1998) 19 Cal.4th
652, 667-68 [“Whatever the precise standard,
materiality clearly requires some objective potential
for [causing the relevant harm]”]; Lynch v. Cook (1983)
148 Cal.App.3d 1072, 1081-82 [“[T]he question of
materiality, it is universally agreed, is an objective one
. . . “]. See, e.g., Amgen Inc. v. Conn. Retirement Plans
& Trust Funds (2013) 568 U.S. 455, 467 [“[T]he
question of materiality is an objective one, involving
the significance of an omitted or represented fact . . .
“].) 4 The application of this collapsed, subjective
4

See also Omnicare, Inc. v. Laborers Dist. Council Const.
Industry Pension Fund (2015) 575 U.S. 175, 186-87 [same];
TSC Indus., Inc. v. Northway, Inc. (1976) 426 U.S. 438, 445

118a
approach in the subject matter also creates a split
within the Review Department, which has
elsewhere—and like every other court—defined
materiality objectively. (In the Matter of Pasyanos
(Review Dept. 2005) 4 Cal. State Bar Ct. Rptr. 746,
753 [defining materiality as a “substantial likelihood
that a reasonable person would consider it important
in evaluating” the matter].)
The Court would do well to consider the
consequences of the approach the Review Department
took on page 6 of the Modified Opinion, which cements
the one-step, entirely subjective test of Chestnut,
supra, 4 Cal. State Bar Ct. Rptr. 166, as the
controlling law. Answering out of politeness to a judge
that, yes, you had a nice flight when it was bumpy is
now actionable misconduct, because every false
statement is presumed to be meant with intent to
secure an advantage and therefore material. Telling
a court that your client is pleased to comply with an
inconvenient discovery order he’ll later complain
about can now get you suspended. Responding that
you need 30 days to prepare a brief you really could
get done in 20 if you gave up golfing for two weekends
now qualifies as moral turpitude.
So too do three sets of isolated statements, ripped
from context, that had no objective chance of success
at convincing judges of the following: that appeals
focused almost exclusively on allegations of attorney
[same]. Cf. Burlington Northern & Santa Fe Ry. Co. v. White
(2006) 548 U.S. 53, 68 [materiality requirement for Title VII
retaliation claim requires objective inquiry].

119a
misconduct did not in fact involve an attorney accused
of misconduct. Puffery is universally viewed as
vitiating a showing of materiality (see, e.g., Reilly v.
Pinkus (1949) 338 U.S. 269, 274; Williams v.
Lowenthal (1932) 124 Cal.App. 179, 183-84), and
clearer puffery than in this last example is hard to
imagine. One might as well disbar O.J. Simpson’s
lawyers in the wrongful death matter for defending
their client’s innocence. 5 Or every attorney who hails
the intellectual prowess of a bumbling doctor or a
slumlord’s heart of gold or the integrity of a used car
salesman.
None of these is an attractive or
sympathetic client to be sure. But each is entitled to
a lawyer free to do more than concede liability rather
than risk suspension. One side’s bumbling doctor
might, after all, just be another’s highly respected
physician who did nothing wrong. (E.g., Bro v. Glaser
(1994) 22 Cal.App.4th 1398, 1442.)
No reasonable person, far less any reasonable
judge, who read the district courts’ opinions and the
parties’ briefs in the Plaza Bonita and Vogel appeals
would come away with the misimpression that
Petitioner’s overly impassioned defense of his father
meant there was no arguable basis for concluding
Lynn engaged in misconduct. Lower court findings
that Lynn had engaged in misconduct were, in fact,

5

Although attorneys conducting “the defense of a person
charged with a public offense” enjoy a sliver of protection (and
not against the actual charges here), that protection does not
by its terms extend to attorneys defending those charged with
misconduct in civil or quasi-criminal proceedings. (Bus. &
Prof. Code § 6068, subd. (c.)

120a
the entire point of the appeals. In the Vogel matter,
Petitioner went so far as to join in a motion for judicial
notice of the state bar’s disciplinary order against
Lynn (Exh. 36), and the Review Department itself
concluded that the petition for rehearing en banc
revealed Lynn to have “participated in a pattern of
falsification of evidence that amounted to bad faith.”
(Modified Opinion, at pp. 14-15). Thus, even assuming
every single statement by Petitioner was factual and
misleading—and that is far, far from the case as will
be demonstrated in Part IV below—there were no
material misstatements here. Advocacy, even if it be
overly zealous in parts, cannot be actionable if the
record read as a whole reveals the truth.
c.
United
States
Supreme
Court
jurisprudence requires a showing of actual
harm before imposing discipline for speechbased charges initiated by persons not the
subject or recipient of that speech.
The Review Department noted in its discussion of
aggravation that this case involves no actual harm.
(Modified Opinion, pp. 18-19.) Several principles
already present in the law applicable in California,
along with the United States Supreme Court’s recent
enhancement of protections for false speech in United
States v. Alvarez (2012) 567 U.S. 709, 722, combine to
compel the conclusion that this absence of actual harm
precludes discipline under both the First Amendment
to the United States Constitution and Article I,
Sections 2, 3, and 7 of the California Constitution.

121a
The California principles include this Court’s longheld view that disciplinary matters initiated out of
spite, like those commenced here by opposing counsel,
should be viewed with extreme skepticism. 6 This
Court has also long believed that a purportedly misled
court is in a better position than a disciplinary body to
decide whether a statement is misleading. (See In the
Matter of Hansen (Review Dept. 2016) 5 Cal. State Bar
Ct. Rptr. 464, 473 [citing Lee v. State Bar (1970) 2
Cal.3d 927, 940].) As is true elsewhere, California
actively discourages litigation by bar complaint, of
which this matter is a prime example. (E.g., Rules
Prof. Conduct, rule 3.10, subd. (a).)
The federal constitutional concerns implicated by
speech-based attorney discipline are well established
too. “Even statements that at first blush appear to be
factual are protected by the First Amendment if they
cannot reasonably be interpreted as stating actual
facts about their target.” (Standing Committee on
Discipline v. Yagman (9th Cir. 1995) 55 F.3d 1430,
1438.) Statements of “‘rhetorical hyperbole’ aren’t
sanctionable, nor are statements that use language in
a ‘loose figurative sense.’” (Ibid.)
Those constitutional concerns have undergone an
upgrade since the last time this Court addressed
allegedly false attorney speech. In 2012, a plurality of
the Supreme Court “reject[ed] the notion that false

6

See, e.g., Sodikoff v. State Bar (1975) 14 Cal.3d 422, 431;
Pickering v. State Bar (1944) 24 Cal.2d 141, 145; Peck v. State
Bar (1932) 217 Cal. 47, 51; In the Matter of Lapin (Review
Dept. 1993) 2 Cal. State Bar Ct. Rptr. 279, 292-93.

122a
speech should be in a general category that is
presumptively unprotected.” (Alvarez, supra, 567 U.S.
at 722. Like the Stolen Valor Act struck down there,
the disciplinary action here “targets falsity and
nothing more.” (Id. at 719.)
Taken together, these principles establish that,
without a showing of actual harm or at least a
complaint by a person who could have been actually
harmed—in this case, one of the judges or perhaps one
of the defendants in the underlying actions—it is
unconstitutional under the First Amendment to
punish attorney speech based on pure falsity alone.
This approach accommodates the government’s
heightened interest in regulating attorney speech by
not requiring actual harm in every case, or even the
great majority of cases, as Alvarez suggests must be
true to regulate garden-variety false speech. It
accommodates First Amendment principles by barring
the most problematic kinds of prosecutions that, as in
this case, allow members of a powerful interest group
(the corporate defense bar) to weaponize quasicriminal administrative proceedings against a
disfavored group (disability rights lawyers).
It is worth noting that if a determined member of
the defense bar succeeds in felling a top plaintiff-side
ADA lawyer based solely on overly exuberant and,
indeed, not even material in-court statements that no
judge or party found objectionable, there will surely be
copycats. The lesson will be that any member of the
wider world—read: a legion of low-paid paralegals
employed by the corporate community—can comb
through, line by line, every pleading any targeted

123a
attorney has ever filed, tie the attorney up in
disciplinary proceedings for years, and maybe even
eventually rid themselves of that meddlesome
advocate, certainly for a time and perhaps forever.
Limiting the class of persons eligible to seek discipline
based on an attorney’s harm-free speech prevents
incentivizing this behavior while ensuring attorneys
are still amenable to discipline by those with a goodfaith basis for complaining about unsuccessful false
statements.
Government is too poor a judge of truth and falsity,
of separating opinion from fact, to entrust its coercive
powers to any private party that has the money and
the influence to command, and the ax to grind to make
it want to command, governmental attention. The
obsequiousness to power evident in the Hearing
Department’s assignment of “particular[]” weight to
Petitioner’s alleged misconduct because it involved
“two of the most important federal courts” is a glaring,
concrete example of the danger bureaucrats pose when
given the power to regulate speech willy-nilly. Surely
it is just as morally objectionable, and arguably more
likely to cause harm, to lie to a little court in the
California “where it is possible to live and die without
ever eating an artichoke.” Or do only fancy courts
matter?

124a
II. This Court’s Intervention Is Necessary To
Prevent the State Bar Court Acting Without or
in Excess of Its Jurisdiction by Routinely
Refusing To Conduct the Independent Review
Mandated by California Rule of Court 9.12.
The law could not be clearer:
In reviewing the decisions, orders, or rulings of a
hearing judge under rule 301 of the Rules of
Procedure of the State Bar of California or such
other rule as may be adopted governing the review
of any decisions, orders, or rulings by a hearing
judge that fully disposes of an entire proceeding,
the Review Department of the State Bar Court
must independently review the record and may
adopt findings, conclusions, and a decision or
recommendation different from those of the
hearing judge.
(Cal. Rules of Ct., rule 9.12 [emphases added].)
The Review Department does not do that and
instead gives “great weight” to the “hearing judge’s
factual findings.” (Modified Opinion, p. 2, fn. 3, p. 17,
fn. 19.) As authority, it cites Rule of Procedure of the
State Bar of California 5.155(A), which does indeed
state: “The findings of fact of the hearing judge are
entitled to great weight.” But as the Rules of Court
expressly state, it doesn’t matter what the Rules of
Procedure of the State Bar of California say. Review
must be independent, not deferential.
The State Bar Court has jurisdiction to recommend
discipline to this Court “[a]fter a hearing for any of the
causes set forth in the laws of the State of California.”

125a
(Bus. & Prof. Code § 6078.) A hearing conducted under
rules out of conformity with the supervening
California Rules of Court is not a “hearing . . . of [a]
cause[] set forth in the laws of the State of
California.” 7 It is ultra vires.
It is, in fact, open defiance. This Court has
authoritatively interpreted the phrase “independent
review” to mean that “review of constitutionally
relevant facts” must be “de novo.” (In re George T.
(2004) 33 Cal.4th 620, 634.) In deferring to the
Hearing Department’s findings of fact, including
ultimate facts and not just credibility determinations,
on issues directly implicating the First Amendment
under Standing Committee on Discipline v. Yagman
(9th Cir. 1995) 55 F.3d 1430, the Review Department
erred—and is erring in every similar case. 8

7

“Rules of Court have the force of positive law; they are as
binding on this court as procedural statutes unless they
transcend legislative enactments or constitutional
guarantees.” (Oats v. Oats (1983) 148 Cal.App.3d 416, 420;
accord Fidelity National Home Warranty Company Cases
(2020) 46 Cal.App.5th 812, 842, fn. 41. See also
Hollingsworth v. Perry (2010) 558 U.S. 183, 196-97.)

8

In this case, the Review Department “afforded great weight”
to a factual finding of “specious[ness]” in re-instating the
disciplinary charge based on statements about Judge
Gutierrez because the statements “purport to set forth [Judge
Gutierrez’s] knowledge, when they are . . . merely [by]
[Petitioner’s] ‘personal knowledge,’ and also ‘patently
misleading.’” (Modified Opinion, p. 17, fn. 19.) Those are not
credibility determinations, but findings of ultimate facts.

126a
III. This Court’s Intervention Is Necessary to
Prevent the State Bar Court Routinely
Depriving Attorneys of a Fair Hearing by
Treating Any Contest of the Charges as an
Aggravating Factor.
The Hearing Department assigned “great weight”
and the Review Department “substantial weight” in
aggravation to Petitioner’s decision to contest these
allegations, an assignment apparently authorized by
State Bar Court cases. (Modified Opinion, p. 19 [citing
In the Matter of Katz (Review Dept. 1991) 1 Cal. State
Bar Ct. Rptr. 502, 511]; Hearing Department Opinion,
p. 19.) It is one thing to upgrade the culpability of an
attorney who “seeks to shift responsibility to others”
by denying provable historical facts.
(Modified
Opinion, p. 19.) Petitioner is not alleged to have done
that.
When instead the government faults an attorney
for a “lack of insight,” (ibid) based on the legal
conclusions—the opinions—he draws from a set of
established facts, significant free speech concerns
arise. Both Section 6079.4 of the Business and
Professions Code, which bars sanctioning attorneys
for exercising their statutory or constitutional rights
in connection with a disciplinary proceeding, and
California’s litigation privilege, which insulates
litigation-related speech “irrespective of the
communication’s maliciousness or untruthfulness”
(People ex rel. Gallegos v. Pacific Lumber Co. (2008)
158 Cal.App.4th 950, 958), provide important
additional background principles counseling against
this approach.

127a
Petitioner and OCTC entered into an extensive
stipulation as to the historical facts in this matter.
That was already more than required of Petitioner. To
fault him for advancing legal arguments based on
those undisputed facts, arguments the Review
Department did not accept, is not punishing him for a
“lack of insight.” It’s punishing him for fighting the
charges. This is more George Orwell than Roger
Traynor, more Chairman Mao than Stanley Mosk.
IV. This Court’s Intervention Is Necessary
Because the Weight of the Evidence Does Not
Clearly and Convincingly Show Misconduct.
Consider the following statement from the Plaza
Bonita matter for which Petitioner stands to lose his
livelihood for at least a year: “Throughout [my
father’s] forty-year career [he] has never . . . never . . .
been found to have committed professional
misconduct . . .” (Modified Opinion, p. 5.) OCTC
presumably considers that actionable because
Petitioner’s father was earlier the subject of final
federal bar discipline arising out the Plaza Bonita
matter itself. It would, on OCTC’s reading, not be
sanctionable only if Petitioner had prepended “Before
the misconduct here . . .” to the sentence.
Now consider this statement from the Modified
Opinion: “The hearing judge gave no mitigation credit
for Hubbard’s nearly 15 years of discipline-free
practice.” (Id. at p. 20.) Likewise ripped from context,
that statement is just as untrue according to OCTC’s
exacting standards; the notice of disciplinary charges
was not filed until August 7, 2018, and discipline was
not actually recommended until June 27, 2019,

128a
meaning Petitioner had either more than 17 years or
more than 18 years of “discipline-free practice.” 9 In
context, of course, it is clear that the Review
Department was measuring the time back from the
date of the charged conduct, but it omitted the obvious
and unnecessary qualifier “before the misconduct
here.” Fair enough. Yet should that sentence expose
the author of the Review Department’s opinion to the
risk of discipline? And are there any lawyers or judges
who have never written a sentence that, plucked from
context, is misleading?
This is the problem with OCTC’s and the State Bar
Court’s conduct of this case. With enough scrutiny,
anyone can find a statement that could be phrased
more precisely. Intelligible briefs simply cannot be
written where every sentence, standing alone, is
unimpeachably 100% true. That is not, and cannot
become, sufficient to impose discipline.
The Vogel colloquy, Vogel statement #1, Vogel
statement #6, and Plaza Bonita statement #1 are all
literally, if narrowly, true when “considering their
nature and the context in which they were made.”
(Standing Committee on Discipline v. Yagman (9th
Cir. 1995) 55 F.3d 1430, 1437.) “With respect to the
attorney responsible for the deposition . . . uh . . . the

9

Then consider the Review Department’s assessment of the
“multiple acts of wrongdoing” standard, which can fairly be
read to suggest Petitioner made “eight misleading
statements” when only seven statements charged as
misleading were left standing. (Id. at p. 18; see id. at pp. 1415.)

129a
discovery-related abuses,” OCTC did dismiss the
charges against Lynn’s associate. Lynn did have a
blemish-free career before Plaza Bonita and Vogel.
Could Petitioner have been clearer? Certainly. But
that is the reason we have an adversarial system of
justice. It is not the reason we have a disciplinary
system.
To whatever extent the rest of the statements
might be considered misleading (excepting Vogel #5,
which even the Review Department threw out), they
represent at worst misleading opinions. This precise
kind of overreach is exactly the reason Yagman, supra,
55 F.3d 1430, which has been the governing
framework in this state since In the Matter of
Anderson (Review Dept. 1997) 4 Cal. State Bar Ct.
Rptr. 775, 786, crafted such strong First Amendment
protections.
Thus, Plaza Bonita statement #2 and Vogel
statement #3 cannot be actionable because “it is plain
that the speaker is expressing a subjective view, an
interpretation, a theory, conjecture, or surmise, rather
than claiming to be in possession of objectively
verifiable facts.” (Yagman, supra, 55 F.3d at 1441
[internal quotation marks omitted].) For example,
“Everything that [Lynn] said in this matter was 100%
true,” from Plaza Bonita statement #2, is obviously an
opinion: that it matters more what (if anything) Lynn
actually said about Barbara in signing the settlement
agreements than what he failed to say.
That
argument may not be a winner, but it is still an
argument.

130a
Further, Petitioner’s Judge Gutierrez statements
cannot constitutionally form the basis for discipline
because OCTC did not put Judge Gutierrez on the
stand to prove that he did not, in fact, “know” those
things Petitioner alleged him to know. (Id. at 1441-42
[“While we share the district court’s inclination to
presume in the absence of supporting evidence that
[the judge was not drunk on the bench, as the attorney
had alleged without proof], the fact remains that the
[disciplinary body] bore the burden . . . .].) The same
is true of Vogel statement #2 and #4—no testimony
was introduced from the OCTC counsel who appealed
or who dismissed. Whatever Petitioner said about the
others involved here, he did not call one of them
“dishonest,” “ignorant,” “ill-tempered,” “buffoon,”
“sub-standard human,” “right-wing fanatic,” “a bully,”
or “one of the worst judges in the United States,” each
of which is more than a titch worse than “knowingly
wrong,” yet each of which individually and collectively
will be protected. (Id. at 1140.) Yagman controls, and
disposes of, the charges here.
V. This Court’s Intervention Is Necessary
Because the Harsh Recommended Discipline Is
Not Appropriate in Light of Significant
Mitigation, Little Aggravation, and an Obvious
Alternative.
Assume everything above is wrong. To grasp the
continued strangeness of this case, consider the
following aggravating and mitigating circumstances,
the first by the Hearing Department and the second
by the now controlling opinion of the Review
Department:

131a
Factor

Hearing Dept.
Weight

Review Dept.
Weight

Agg: Multiple
Acts
Agg:
Uncharged Acts
Agg:
Significant
Harm
Agg:
Indifference
Agg: No
Candor
Mit: No prior
discipline
Mit:
Cooperation
Mit: Good
Character
Mit:
Community
Serv.

“Significant”
(3)
Present (1)

“Moderate” (2)
↓
Absent (0) ↓

“Significant”
(3)

Absent (0) ↓

“Great” (3)

“Substantial”
(3) ↔
“Moderate” (2)
↓
“Limited” (1) ↑

“Significant”
(3)
None (0)
“Moderate” (2)
“Nominal” (1)
“Limited” (1)

“Moderate” (2)
↔
“Substantial”
(3) ↑
“Some” (1) ↔

132a
Thus, the Review Department downgraded the
severity of four of the five aggravating factors
considered and upgraded the significance of two
mitigating factors. Yet there was no change in the
bottom-line disciplinary recommendation. The point
is all the starker when one takes a more quantitative
approach. 10 Treating the aggravating factors as plus
points and the mitigating factors as negative points,
the Hearing Department sanctioned Petitioner with a
net adverse score of 9. The Review Department
recommends the exact same sanction for a net score of
0. This cannot be right.
Finally, “the aim of attorney discipline is not
punishment or retribution; rather attorney discipline
is imposed to protect the public, to promote confidence
in the legal system, and to maintain high professional
standards.” (In re Brown (1995) 12 Cal.4th 205, 217.)
There is an obvious, far less punitive sanction that
would achieve those stated aims in this case.
Petitioner has had an exemplary, utterly
unblemished career except for these matters involving
his defense of his father, whose own misconduct
(doubtless far more serious than Petitioner’s yet
punished the same) began in the immediate aftermath
of his own mother’s death. If Petitioner is guilty of

10

For example, mapping the various (and unhelpfully so)
different terms used by the Hearing and Review
Departments to a standard scale of: 0 = absent/none, 1 =
limited/some/nominal,
2
=
moderate,
3
=
significant/great/substantial.

133a
anything, it is excessive zeal defending a family
member’s honor and livelihood. And the burden of
barring petitioner from practice for a year will be
borne in large degree by his impecunious disabled
clients—members of a shunned minority whose access
to life activities the rest of us take for granted depends
on finding experienced counsel willing to be paid, if at
all, by fee awards in successful cases. (Wall, The
A.D.A. at 30: Beyond the Law’s Promise, N.Y. Times
(Jul.
26,
2020)
<https://www.nytimes.com/
interactive/2020/us/disability-ADA-30anniversary.html>.)
Public reproval and an extended practice
restriction barring Petitioner from representing
family members would prevent the only arguable
danger Petitioner has ever posed to the public or the
profession. More is neither necessary nor appropriate.
CONCLUSION
For the reasons set forth, the recommendation of
the State Bar Court should be summarily rejected and
the charges dismissed, or this Court should grant
review and order full briefing on the important, and
recurring, questions this case presents.
Respectfully submitted,
Russell Handy
POTTER HANDY
8033 Linda Vista Road, Suite 200
San Diego, California 92111

134a
Alex Kozinski
719 Yarmouth Rd, Ste 101
Pls Vrds Est, California 90274-2671
VERIFICATION
I, Scottlynn J. Hubbard IV, Petitioner in this
matter, declare that I have read the foregoing Petition
for Review and know the contents thereof. I certify
that the same, and all the facts based upon the record
of this matter in the State Bar Court, are true of my
own knowledge, except as to those matters stated on
information and belief such as legal arguments made
herein, and as to those matters I believe them to be
true.
I hereby declare and certify under penalty of
perjury under the laws of the State of California that
the foregoing is true and correct.
Done this thirteenth day of August 2020, at Chico,
California.
Scottlynn J. Hubbard IV

135a
__________
APPENDIX F
__________

STATE BAR COURT OF CALIFORNIA
OFFICE OF CHIEF COUNSEL
ENFORCEMENT UNIT
Nos. 16-O-10871-MC (16-O-14863)

IN THE MATTER OF
SCOTTLYNN J. HUBBARD IV
STATE BAR NO. 212970

May 5, 2016
Dear Mr. Hubbard:
This letter is sent to you based upon information that
you are not currently represented by counsel in this
matter. If this is incorrect, please advise me within
five days so that future communications may be
directed to your counsel.
Recent information received by the State Bar
indicates you deceived the Ninth Circuit Court of
Appeal by denying the existence of a State Bar
Court proceeding pending against your father,

136a
Lynn Hubbard. Specifically, on February 4, 2016,
you presented oral argument to the Ninth Circuit
Court of Appeal in an ADA case in which the USDC
imposed monetary sanctions against your father,
Lynn Hubbard III, in Vogel v. Tulaphorn. Inc. dba
McDonalds #10746; McDonald's Corporation,
USDC Case No. CV 13-00464. During oral
arguments, you engaged Justice Smith as follows:
J. Smith: “Has the State Bar taken any actions
in connection with the attorneys in this matter?”
You: “With respect to the attorney responsible for
the deposition ... uh ... the discovery-related
abuses. as I indicated in our reply brief …”
J. Smith: “What happened?”
You: “While it happened, all of this …”
J. Smith: “No, I mean. what did the State Bar
do?”
You: “Oh, the State Bar dismissed in the
interests of Justice, their words. Dismissed all
the charges against him.”
J. Smith: “Any of the other attorneys?”
You: “Uh, that was the only attorney.”
J. Smith: “The only one?”
You: “Yes.”
Your response to the Court was incomplete and
misleading because Hubbard III (whom you

137a
defended) and Kushpreet Mehton were corespondents in State Bar investigations 13-017118 and 13-0-17119. During trial, the Office of
Chief Trial Counsel dismissed the case only
against Mr. Mehton. On February 18, 2015, a year
before you argued before the Ninth Circuit, the
Hearing Department filed its decision against
Hubbard III, finding culpability of a variety of B&P
violations in three matters, including the Vogel
matter, and recommended Hubbard III be actually
suspended for a year. You appealed this matter to
the Review Department, and briefing was
completed September 10, 2015. The State Bar
Review Department abated the case against
Hubbard III on December 22, 2015, pending the
Ninth Circuit's decision on Hubbard III's appeal in
Vogel. Thus, the State Bar case against Hubbard
III remained pending at the time you made the
misleading response(s) to Justice Smith's
questions.
Your written response to these allegations along with
any supporting documentation is requested. All
documents that you send to the State Bar, whether
copies or originals, become State Bar property and
are subject to destruction.
FAILURE TO PROVIDE THE DOCUMENTS
REOUESTED IN THIS LETTER MAY RESULT
IN THE ISSUANCE OF A SUBPOENA DUCES
TECUM.
In addition, pursuant to Business and Professions
Code section 6086.10, you may be subject to a cost
assessment for the expenses incurred by the State Bar

138a
if this matter results in public discipline.
We must receive your written response and the
documents requested, if any, by May 19, 2016. Section
6068(i) of the Business and Professions Code states
that it is the duty of an attorney to cooperate with and
participate in any State Bar Investigation.
Upon request, the Office of Chief Trial Counsel will
consider granting you additional time within which to
submit a written response to the allegations and the
requested information and documents. A request for
an extension of time must be in writing and state good
cause as to the specific constraints on your practice
which are claimed to necessitate the additional time.
Any request for extension of time must be received by
the undersigned on or before May 19, 2016.
Please feel free to call me at (415) 538-2271 if you have
any questions.
Very truly yours,
Wesley Hester Jr
Investigator

139a
July 14, 2017
Dear Mr. Bellicini:
This letter is sent to you based upon information that
you are currently representing the respondent in the
above-noted matter. If this is incorrect, please advise
me within five days so that future communications
may be directed to the respondent personally.
I was recently reassigned to investigate the State Bar
initiated complaint against Scottlynn Hubbard.
Thank you for your June 17, 2016 to the letter from
former State Bar investigator Wesley Hester Jr.
I have some additional questions that pertain to
statements your client made in the petition for
rehearing en banc in Vogel v. McDonalds Corp. and
Tulaphorn Inc., Case No. 14-55176, submitted to the
9th Circuit Court of Appeals on March 2, 2016.
On page 11 of the petition, your client wrote:
“The State Bar of California- thanks in no small
part to the district judge's referral -prosecuted
Hubbard and Mehton for professional misconduct
and ethics violations. The results of that
prosecution was also a surprise to no one .
Brownfield's testimony was so unbelievable that,
after he finished the prosecutor dismissed all of the
charges based on his outlandish accusations of
discovery abuse and manufacturing evidence!”
Please explain why your client wrote that disciplinary
charges against Lynn Hubbard III had been dismissed
when the State Bar Court issued a decision on Feb. 18,

140a
2015 finding Mr. Hubbard had committed misconduct
and recommending a one-year actual suspension.
On page 16 of the petition, your client also wrote:
“Hubbard has practiced law in California for more
than thirty-two years without any record of
discipline.”
Please explain why your client stated that Lynn
Hubbard III had no record of discipline when 1) on
Feb. 4, 2013, the U.S. District Court disciplined him
by suspending him for one year and 2) on Feb. 18, 2015
the State Bar Court issued a decision recommending
a one-year actual suspension.
Pursuant to Business and Professions Code section
6086.10, the respondent may be subject to a cost
assessment for the expenses incurred by the State Bar
if this matter results in public discipline.
We must receive a written response to the allegations
and the requested information and documents by July
31, 2017. Business and Professions Code Section
6068(i) states that it is the duty of an attorney to
cooperate with and participate in any State Bar
Investigation.
Upon request, the Office of Chief Trial Counsel will
consider granting your client additional time within
which to submit a written response to the allegations
and the requested information and documents. A
request for an extension of time must be in writing and
state good cause as to the specific constraints on your
client's practice which are claimed to necessitate the
additional time. Any request for extension of the time

141a
must be received by the undersigned on or before July
31, 2017.
Please feel free to call me at (415) 538-2041 if you have
any questions .
Very truly yours,
Amy Yarbrough
Investigator

July 2, 2018
Dear Mr. Bellicini,
In reviewing discovery and preparing the ENE
Statement, I realized that Mr. Hubbard had not been
given a formal opportunity to respond to additional
allegations, beyond those made in Investigator Amy
Yarbrough’s TR letters dated July 14, 2017 and
August 31, 2017.
First,
there
appears
to
be
additional
misrepresentations in the Petition for Rehearing En
Banc Mr. Hubbard filed with the Ninth Circuit in the
Vogel matter as follows:
1. Respondent falsely suggested that the State Bar
prosecutor, in dismissing charges against
Kushpreet Mehton, “admitted” that had Lynn
Hubbard and Mr. Mehton been allowed to respond
to the motion for terminating sanctions in the
district court with an evidentiary hearing, that the

142a
State Bar would have never brought charges in the
first place. In fact, respondent knew the lack of an
evidentiary hearing in the district court had no
bearing on the State Bar’s decision to prosecute
Lynn Hubbard or Mr. Mehton. Respondent knew
that the State Bar prosecutor’s use of the word
“response” in explaining the dismissal of charges
against Mr. Mehton had nothing to do with the
district court proceedings, but instead referred to
the lack of a formal response by Mr. Mehton and
Mr. Hubbard to State Bar charges during the
investigation of their conduct.
2. Respondent falsely suggested the State Bar
prosecutor dismissed charges immediately after
witness Brendan Brownfield testified because his
testimony was so unbelievable by stating to the
court: “Brownfield’s testimony was so unbelievable
that, after he finished, the prosecutor dismissed all
the charges based on his outlandish accusations of
discovery abuse and manufactured evidence!” In
fact, respondent knew that the State Bar did not
dismiss
any
charges
immediately
after
Brownfield’s testimony, and that the eventual
dismissal of charges against Mr. Mehton was not
because Mr. Brownfield’s testimony was “so
unbelievable.”
3. Respondent falsely suggested that the sanctions
in the Vogel matter were for discovery violations
alone, when respondent knew that the sanctions
were also based on Lynn Hubbard’s misconduct in
filing a motion for summary judgment which
contained false representations. Respondent also
knew that, almost a year before he filed the

143a
Petition for Rehearing, Judge Donald Miles of the
State Bar Court Hearing Department had found
Lynn Hubbard culpable of moral turpitude and a
willful violation of Business and Professions Code,
section 6106 for filing a motion for summary
judgment containing false representations.
Second, it appears Mr. Hubbard made an additional
misrepresentations to the U.S. Supreme Court in his
Petition for Writ of Certiorari in the Plaza Bonita
matter (attached)as follows:
4. Respondent stated, “Everything that [Lynn]
Hubbard said in this matter was 100% true, 100%
of the time; and there is absolutely no evidence that
he fraudulently concealed anything from anyone.
Pet.App
112a-128a&161a-178a.
More
importantly,… he [Lynn Hubbard] did not come
close to (much less cross) the line of professional
misconduct, unethical behavior, bad faith, or even
recklessness. Ibid. In fact, after eight years of
persecution no one – not Peters [opposing counsel]
not the magistrate, not two district persecution no
one – not Peters [opposing counsel] not the
magistrate, not two district judges, not the State
Bar of California, not even the Ninth Circuit panel
– has identified what duty [Lynn] Hubbard
supposedly violated.” (emphasis in original).
a. In fact, respondent knew that on June 13,
2011, U.S. Magistrate Judge William Gallo
found that Lynn Hubbard’s actions in the Plaza
Bonita case “constitute[d]recklessness and
were done in bad faith.”
b. In fact, respondent knew that on February 4,

144a
2013, Judge M. James Lorenz found that Lynn
Hubbard’s
“intentionally
deceptive
and
misleading conduct in the underlying action
[Plaza Bonita] constitutes unprofessional
conduct that violated ABA Model Rules 3.3,
4.1(a), 7.1 and 8.4; California Rules of
Professional Conduct 5-200 and 5-220; State
Bar Act sections 6101 [meaning 6106], 6068(b),
and 6068(d). Through these violations, Mr.
[Lynn] Hubbard’s conduct also constitutes
unprofessional conduct in violation of this
district’s Civil Local Rule 83.4.”
c. In fact, respondent knew that as a result of
Judge
Lorenz
finding
of
professional
misconduct, his father, Lynn Hubbard had been
suspended from the practice of law for one year
in the Southern District of California, and that
Lynn Hubbard’s one-year suspension became
effective on or about October 29, 2013.
d. In fact, respondent knew that on February
18, 2015, State Bar Court Judge Miles found
Lynn Hubbard culpable of professional
misconduct, and with respect to the Plaza
Bonita matter stated, “… [Lynn Hubbard’s]
conduct violated, at minimum, the prohibitions
of section 6106; section 6068, subdivision (d);
and rules 5-200 and 5-220.”
e. In fact, respondent knew that on November
12, 2015, the Ninth Circuit panel, in affirming
the Plaza Bonita sanctions, found that “[a]ny
rational attorney representing a plaintiff in an
ADA access case would know that if his client

145a
died, the defendants would want to know about
it, especially before signing a settlement
agreement that promised prospective relief.
And by sending the defendant an agreement
after his mother’s death that purported to
contain her signature when it was not in fact
her signature, [Lynn] Hubbard created the
impression that she was still alive. [Lynn
Hubbard] provides no coherent innocent
explanation for this conduct, and the most
logical conclusion to be drawn is that he
intended to deceive the defendant. Such
conduct rises to the level of recklessness and
bad faith.”
We can proceed one of two ways: (1) We can take the
ENEC off the calendar for July 9th and reschedule the
ENEC for some time after July 23rd, after you have
had 20 days to respond to the additional allegations or
(2) if you wish, you can waive submitting a TR
response to these allegations and we can proceed with
the ENEC on July 9th as scheduled.
I apologize for this development, but wanted to bring
these additional allegations to your attention and
allow you an opportunity to respond. If you wish to go
forward with the ENEC on July 9th please advise me
at your earliest convenience as I will need to submit
my ENE Statement to the court. Please let me know
how you would like to proceed.
Melissa G. Murphy
Deputy Trial Counsel
Office of Chief Trial Counsel
The State Bar of California

146a
180 Howard Street
San Francisco, CA 94105

July 2, 2018
Dear Mr. Bellicini,
With respect to the Petition for Rehearing En Banc,
one final allegation requiring a response from Mr.
Hubbard is that he attacked the integrity, fairness
and character of U.S. District Court Judge Philip S.
Gutierrez by falsely claiming that Judge Gutierrez
made rulings and findings that Judge Gutierrez knew
were incorrect and contrary to the evidence by stating
the following:
This isn’t a case where Judge Gutierrez did not
know that we were innocent of the charges…he did.
The record shows he knew that our positions were
firmly rooted in binding Ninth Circuit precedent;
knew that we had never manufactured
constitutional standing in an ADA lawsuit (ever)
[Footnote 9: Any court can take judicial notice of
that fact – i.e., appellants had never been accused
of (much less found to have) manufacturing
constitutional standing in an ADA lawsuit – via a
cursory search of Westlaw and Lexis]; knew that
Brownfield had misrepresented the holdings of InN-Out Burgers, knew that Vogel had visited
Tulaphorn’s restaurant, which is located next to
his brother’s house, before the filing of the lawsuit
and had first-hand knowledge of the facility; knew
that Vogel’s confusion regarding the actual date of
that visit was traced directly to a clerical error by

147a
his lawyers (who not only took full responsibility
for their mistake, but worked diligently to correct
the record once the mistake was discovered); and
knew that, given an opportunity, we could have
proven all these facts at an evidentiary hearing. It
did not matter! The district judge was determined
to find that appellants had a history of mendacity,
a pattern of deception, and willfully suborned
perjury regardless of what the evidence showed;
and that is precisely what he did (emphasis in
original).
Please include this in your response due July 23, 2018.
Thank you.
Melissa G. Murphy
Deputy Trial Counsel
Office of Chief Trial Counsel
The State Bar of California
180 Howard Street
San Francisco, CA 94105

